Semi-Annual  Report of the
Inspector General                   ,_/_
April 1, 1979 - September30, 1979

U.S. Departmentof Labor
Office of InspectorGeneral
                 SEMI-ANNUAL    REPORT

DEPARTMENT   OF LABOR--0FFICE    OF INSPECTOR       GENERAL

       APRIL   i, 1979 - SEPTEMBER       30, 1979
                                        TABLE    OF CONTENTS

                                                                                        PAGE

MESSAGE     FROM THE INSPECTOR        GENERAL                                             1

EXECUTIVE        SUMMARY                                                                 i0

INTRODUCTION                                                                             12

CHAPTER     i.     ORGANIZATION     AND _ESOURCES                                        13

CHAPTER     2.     AUDIT ACTIVITIES                                                      17

CHAPTER     3.     INVESTIGATIONS     ACTIVITIES                                         38

                                      ....                                               49
CHAPTER     4.     ADP REVIEWS
                                                                                         51
CHAPTER     5.     FRAUD PREVENTION     AND DETECTION       ACTIVITIES

APPENDICES

A.   Memorandum        on Organized     Crime    Program    Planning

B.   OIG Organization         Chart

C.   List of Audit Reports            Issued April       i, 1979-September     30, 1979

D.   Action on Recommendations               Contained    in ADP Reviews     October    i, 1978-
     March 31, 1979

E.   List        of ADP Review    Reports     Issued April    i, 1979-September        30, 1979
MESSAGE        FROM    THE    INSPECTOR             GENERAL


Pursuant        to the provisions                   of     the    Inspector         General     Act     of    1978,     I am


required        to report       to the             Congress        twice     a year        concerning         the    activities

and     accomplishments             of    this       Office.          This      particular        report,       which       covers

the period          of April        1-September              30, 1979,          is my     first      report     to the

Congress       as     Inspector          General         of the U.S.          Department          of Labor.




As    I discussed        during          my    confirmation              hearings,        the Inspector             General       Act

has     significantly          affected             traditional            audit    and     investigative            activities

within     this Department,                   has    created        a more      powerful        organizational              mechanism

to fight       waste,        fraud       and       abuse     in Departmental              programs       and    has    provided
                                                                                                                                        /
this     Office       with    the    statutory             basis      upon    which       to develop         innovative

long-range          strategies           to promote              economy     and    efficiency.




Since     I officially          began          my    duties        on May     i8,    1979,      my     principal       objectives

have    been    to establish              an       effective        organization           to work       on these       objectives

and    to develop        a planning                process        that   will      result      in well-designed

attacks     on major          systemic             problems        affecting        waste,      fraud     and       abuse    in

Departmental           programs      and           operations.           Thenext          semi-annual          reportto

the Congress           will    reflect             the   fruits       of•these       organization-building

and    planning        efforts.      In        this message,               I want    to describe          our plans.

The    subsequent        sections             of    this     report      reflect        the    results       of activities

undertaken          before     I arrived.                These      sections        do not      reflect        the    results


of the     changes       I am now             implementing.              Thus,      they      should     be only
 marginally      helpful      to the Congress        in evaluating       the effectiveness          of

 this Office.         My review       of the following        report    strengthens     my conviction

 that traditional           audit   and investigative         approaches     will not in themselves

 succeed     in controlling         waste,   fraud    and abuse       in Department     of Labor

 programs.      To have      a real    impact,    what     is needed    is a combined       audit    and

 investigative        effort    to design       and implement     strategic       attacks    on identified

• problem    areas.




 I am pleased        with    the progress       we have made     in the areas        of organization-

 building     and planning,          although     there have    been    problems.      In the area

 of organization-building,              let me     first    talk about     our accomplishments.




 This   Office    has had the great          fortune       of having    attracted     three outstanding

 professionals        to fill       key managerial       positions.      Ronald     Goldstock,      the

 Deputy     Inspector       General,    brings     to this position        nationally-recognized

 expertise      in the criminal         investigations        area,    especially     organized

 crime.      Prior    to beginning       his duties        in this Office     on July       16, 1979,

 he was Director         of the Cornell         University     Institute     on Organized        Crime,

 and,   prior    to that,      Head of the Rackets           Bureau    in the New York District

 Attorney's      Office.




 Our Assistant        Inspector       General     for Audit,    Edward     W. Stepnick,,joined

 our Office      on July      30, 1979.      He    is an outstanding        audit   manager      and I

 feel   fortunate       that he decided         to leave     the position     of Assistant

 Inspector      General      for Audit    at the Department           of Health,     Education,




                                                    - 2 -
and    Welfare       to help         us design        and    build    our     audit     organization            at Labor.

His    12    years      with    HEW       were    preceded     by 15 years           with    the    General       Accounting

Office.




Our most       recent      senior          level     appointee       is A.     M. Statham,          who    joins      our

staff       on October         20,    as Assistant           Inspector        General       for    Investigations.

He has      had    over    14 years           experience       with     the U.S.        Postal      Inspection

Service,       his most         recent        position       being    Assistant         Postal      Inspector         in

Charge,       in which         he was       responsible        for managing           mail    fraud       investigations

in seven       western         states       and    the Trust        Islands     of the Pacific.                 Mr.   Statham's


experience         in white          collar       crime     investigations           and his       strong       managerial

background         provide          him    with    exceptional        credentials           for    this    new    position.




The    recruitment         proces s for            these     top    positions        took    longer       than    I had

hoped.        However,         my    strong       belief     is that     our    organization          needs       and


deserves       the very         best       talent,     and    finding       the right        people       for    these

jobs    was    worth      the wait.




In addition          to the         progress       made     in staffing,        we    have    developed          a new

organizational            structure          which     I believe       will     provide       the necessary

framework         for    effectively             carrying     out    this    Office's        responsibilities.




                                                            - 3-
In addition       to an Office       of Audit,    an Office     of Investigations,           an

Organized      Crime     Investigations       Program    Coordination      Staff,    an Administrative

Management      Staff,      and my own front      Office,    we are establishing            an Internal

Affairs     Staff,     which will     conduct    investigations        related     to internal          OIG

activities      and personnel,        and an Office       of Loss     Prevention     and Analysis.




The    creation    and staffing       of the Office       of Loss     Prevention     and Analysis

will    give   the OIG the institutional           base with which         to carry    out fully

the duties      imposed       by the Inspector     General     Act of 1978,        and to help

the Department         make    the kind    of long-term      systemic    improvements        in program

efficiency      and economy       which    the Act envisioned.          We can no longer           be

satisfied      with    exposure    of the wrongdoer;        we must     develop     procedures          to

prevent     or limit      specific    types    of fraudulent     and inefficient           behavior

and resultant         losses.     The major     focus    of this new Office         will    be on

the prevention         of losses     due to fraud,       dishonesty     and mismanagement.

This   Office     will   analyze     the results    of audits,        investigations        and other

materials      to identify       those    fundamental,     generic     weaknesses     in program

operations,       policies      and management     which    are conducive        to waste,

fraud and abuse,         and then work with        Departmental        managers     to overcome

those weaknesses.             The people    who are being      recruited     for this Office

will   have    both program       and analytical        capabilities.      In addition        to its

central     analytic     role,    this Office     will    perform     the legislative        and

regulations       review,      and intergovernmental        liaison     responsibilities

prescribed      in the Act,       coordinate     our hot-line       activities      and our




                                                  - 4-
operational           surveys,       and    perform          research       on new     audit     and     investigative

methodologies           and    strategies.              I look       forward      to highlighting             the       initial

efforts       of    this new      Office         in my next          semi-annual         report,




There     are      several     factors       which       have    affected         the OiG's        ability         to

organize        itself    as     quickly         and    as effectively            as I had       hoped.        First,


I have       been     disappointed.b_             the time       involved         in processing             personnel

actions       and     other    management          matters.           I believe        these     have       been    cases

of    systemic        weaknesses,          not    deliberate          nonfeasance.             Second,       a general

problem       area     that    is facing          most       Inspectors        General        is that       because          the

concept       and     implementation             of our       Offices       are   relatively          new,    the       skills

to manage          effectively        these       new    enterprises           are    in extremely           short


supply.         For    example,       there       are very       few       top-notch      investigative             managers

in    this    country     who     have      had    experience           in the white          collar        crime       area.


Also,     there       is a real       dirth       of    talent       in the area         of    investigative

accounting,           although       this    kind       of    specialization           would     be    immensely

valuable        to our    Office.           The    entire       personnel         management          and    training

infrastructure           will     have      to change          significantly           if skills        needed          by

these     new Offices          are    to be developed                and    recruited.          It is my       hope          that

the     Inspectors       General       can       collectively           trigger       the kinds        of    changes          in

training        and    educational          programs,          and    Federal        personnel        policies,          which

are needed          to generate        more       effective          staffing        for our     Offices.




                                                             - 5 -
My major     thrust    in planning     this     Office's     activities     is that of systematically

developing     program     strategies,        and utilizing     new and innovative           investigative

and audit     approaches.         I believe     that    it is these     new approaches,          the

implementation        of which was made         possible     by passage     of the Inspector

General     Act, which     provide     the best means        of minimizing        fraud,    abuse      and

waste.     A fundamental      underlying        philosophy     which    is guiding       much    of our

planning     is that audit        and investigative         resources     must    be brought       together

to combat     effectively     waste,     fraud    and abuse     in this Department.

Although     the Inspector        General    Act requires      separate     audit    and investigative

functions,     we have     found     that sophisticated        problems     require      joint     audit

and investigative         approaches     for uncovering        weaknesses        and finding

solutions.




Another     underlying     theme,    which     I have alluded     to before,        is that our

goal     is not the production         of statistics        (number    of convictions,          audit

reports,     etc.) but to have a real            impact     on Departmental        programs      and

the way     in which     they are managed.         This Department's           investigative

program     has been     almost    entirely     geared     to reacting     to allegations.             We

certainly     cannot     entirely    refrain     from responding        to specific        complaints,

but    I do not believe      that we have        the luxury     of investigating           every

allegation     of criminal        activity.      Similarly,     in the audit        area, we can

no longer     restrict     audit    activities     to single     financial        compliance

audits,     cyclically     scheduled     on the basis        of our annual       audit     universe.

We need     to broaden     our audit     program       to encompass     more     internal    reviews

and more     efficiency/effectiveness            audits.      And, we need to utilize              audit

and other     specialized     skills     in conducting        complex     program    investigations.




                                                 - 6 -
We   are     undertaking          a number       of special          initiatives       to help       achieve

these      objectives.

        --      We    have     isolated         a number       of recognized          problem       areas    and

                are    directing          teams       of auditors       and    investigators          to uncover


                actual        instances         of, and       potential       vulnerability          to waste,

                fraud       and    abuse.


        --      We    are     actively      _t_empting           to make      arrangements          with    state

                and    local       law    enforcement          agencies       to assist       our    efforts       in


                investigation             and    prosecution.

        --      We have        developed         and    are     testing    a surveillance            audit     guide


                to aid auditors              in uncovering            instances       of program          fraud.

        --      We    are     actively       exploring         the    possibility       of using          intelligence

                analysts          so that       sophisticated          andanalytical            skills      can be

                utilized          in unraveling          complex       cases    and    uncovering          trends.

        --      We are        enhancing         our    management       information       system          so that we

                will     have      an    improved       capability        to track      audit       and    investigative

                accomplishments             and       to monitor       improvements       made       based     upon     this

                Office's          recommendations.


        --      We are        developing         the program-oriented              loss   prevention           operation,•

                which       I described          earlier.


In the       organized        crime      investigations           program,      our    goal     is to develop

a series       of    investigative           strategies         and well-designed             projects       to

achieve       real    changes       in the       area    of organized          crime/labor          racketeering

control.        Each     of    the 14 Labor            Department       investigative          units       assigned

to Department          of Justice          Strike       Force    Offices       is responsible             for drafting


a mission       statement          and    developing          strategies       designed       to achieve          the




                                                              - 7-
goals    articulated       in those     statements.           Individual     cases    will be undertaken

for the purpose          of advancing       these     strategies.        While     this kind    of

planning    has not taken          place    before,     most    Strike     Force    Attorneys     I have

met with    are encouraged          by our initiatives           and welcome        more    concerted,

planned    attacks       on organized       crime     activity.       Attached      to this report          is

the memorandum       which      has initiated         this p!_nning        and program       effort.

(See Appendix       A)




While     the statute      has given       this Office        many    essential     tools    to insure

our effectiveness,          the fact       remains     that often       our ultimate        success

depends     upon    the efforts      of others.         We rely on the Secretary              for support;

we   rely on Departmental           program     managers       to alert     this Office       to incidents

of waste,     fraud and abuse,          and to implement             recommendations        developed       as

a result     of our audit        activities;        we rely on this Department's                management

system     for personnel,        administrative         services       and financial        support.

By and large,        I believe      that    the Department           has given     adequate     support

to this Office.           The establishment           and initial       efforts     of our Office

are having     an effect        on the Department's            concerns     about    waste,

fraud     and abuse.       There    is a greater        sensitivity        to these    concerns,        and

an increasing        awareness      of, and appreciation              for the goals        and activities

of this Office.




In summary,        I am pleased      with     the progress        this Office       has made     in acquiring

new goals, new        staff and new planning             approaches        to enable       us to carry

out effectively          both   the letter      and spirit        of the Inspector          General    Act.

Long-term     control      over waste,        fraud    and abuse       within     the Department       of




                                                         8-
Labor     has   not     been     accomplished     during    the    past    six months     and   probably

will    not     be in    the short-term.          But    that    is the goal      of this    Office


and    our    efforts      are    geared    to achieving        that   goal.     During    the past    several


months,       we have      developed       the capacity     to meet       this   goal;    the next    six

monthslwill        determine        how    effectively     this    capacity      can be used.




MARJORIE        FINE    KNOWLES
Inspector        General




                                                         - 9 -
EXECUTIVESUMMARY

During    the six-month      period    covered    by this report,         the Office    of

Inspector    General    (OIG), of the Department             of Labor     (DOL), conducted

a number     of significant      audits    and investigations.            The problems       disclosed

are described     in detail      in ChapterS      2 through      5 of this report.           The

highlights     of OIG's    accomplishments        for the period appear         below.

A.   Audit

     --       206 audit    reports     have been      issued    during    the reporting

             period,    which    question    $78.9 million        in costs.

     --      The most     frequent     and significant         problems    identified    by

              these audits      were   ineligible     participants        in DOL programs,

              insufficient      documentation      of expenditures,         improper    allocations

             of administrative         charges,    and unresolved         questioned    costs      in

             subsponsor     audits.

B.   Investigations

     Grant    Fraud and Employee          Integrity     Investigations

     --      777 cases are open         as of September         30, 1979.

     --      66 indictments       have been      returned      and 39 convictions       have

             been obtained      in cases     in which      OIG has participated.

     --      a total of $441,420          in overpayments        of Workers'    Compensation

             benefits     to claimants      have been detected.


     Organized     Crime Investigations

     --      323 cases are open as of September                 30, 1979.

     --      13 individuals      have been       indicted,      ii of whom were     convicted.




                                                  - I0 -
C.   ADP     Reviews


     --       7 ADP       review    reports           were    issued.


     --       3 of       the    reports     identified          significant           problems        or


              deficiencies          and     made       recommendations              for    correcting        the

              situations.


D.   Fraud        Prevention       & Detection           Activities


     --       A    special       review     of    the    Employment           and    Training        Administration's


              Summer       Youth    Employment           Program        was    conducted        by    OIG.


     --       A    DOL    OIG    Hotline        was    installed        during       the    reporting


              period       on    which     66    complaints          have     been    received.




                                                             - Ii-
INTRODUCTION


The Office     of Inspector      General        (OIG), Department       of Labor     (DOL), was

established       in October    1978, by the Inspector            General    Act of 1978,

Public    Law 95-452.        The purpose        of OIG is to:      (I) recommend        policies

to prevent     and detect      fraud,     abuse    and waste    in DOL programs         and operations

and increase       their economy       and efficiency;         (2) conduct,      supervise      and

coordinate     audits      and investigations        relating     to DOL programs        and operations;

and    (3) keep    the Secretary       of Labor     and Congress       informed     about   problems

and corrective       action    taken     in the administration          of DOL programs         and

operations.        To accomplish        this,    the majority     of DOL's      audit   and investigative

activities,       which    include    fraud     and employee    integrity       invesEigations,

the Organized       Crime    Strike    Force     investigations       and Automated      Data

Processing     (ADP) reviews,         have been consolidated          within     the O_.




On May 18, 1979, Marjorie             Fine Knowles     was sworn       in as the Inspector

General    of the Department          of Labor.      She came     from the Department           of Health,

Education,     and Welfare,      where     she served as Assistant           General     Counsel

for the Inspector          General    Division.




Chapter    I of this report          briefly     reviews    our new organizational          structure,

and our present       and future       resources.      The following        three    chapters     deal

with   the activities        and accomplishments           of OIG's    audit,    investigations

and ADP units during          the reporting        period.     The report       concludes    with     a

review of the special          activities        that OIG has implemented           to detect

and prevent       fraud,    abuse and waste        in DOL programs       and operations

during    the reporting       period.


                                                  - 12 -
CHAPTER         I.              ORGANIZATION              AND       RESOURCES


A.       Organizational                    Structure

OIG     is    in     the    process          of     staffing             a new       organizational                    structure          through


which        efforts        to    identify           and       prevent             fraud,       waste        and       abuse       can    be more


efficiently            directed.                 There        are       six    major        organizational                 components


which        will     report          directly           to    the       Inspector           General          an_       the     Deputy


Inspector            General.              These     components                are:         Office       of       Audit,        Office       of


Investigations,                  Office          of Loss           Prevention             and     Analysis,             Organized           Crime


Investigations                  Program          Coordination,                 Administrative                 Management             and


Internal           Affairs.            Attached           to       this       report        is a copy             of    the     recently-


approved           organization              chart.            (See          Appendix        B).




The     Office        of Audit             is headed           by       the    Assistant           Inspector             General          for

Audit,        Edward        Stepnick,             who     is       responsible              for    planning             and     implementing


the     audit        program          of    the     OIG.           The       bulk    of     the    audit          work     is      performed


in    the     field        offices          located           in    each       of    the     ten       DOL    regional             cities


across        the     country          and       headed        by       an    audit       field        supervisor             who    reports

to    the     Assistant           Inspector             General              for    Audit.




The     Office        of    Investigations                    will       be    headed        by    the       Assistant             Inspector


General         for    Investigations,                    A.       M.    (Mac)       Statham,           who       is    responsible             for


the     conduct        of       all    program           fraud          and    employee           integrity              investigations.

There        are     eleven       investigations                    field          offices:        one       in    each       of    the     ten


DOL     regional           cities          and    a Washington,                    D.C.     field       office.            The      supervisory


investigator               in    each       of     these       offices             reports        to    the       Assistant          Inspector


General         for    Investigations.




                                                                             - 13    -
The Offices        of Audit       and Investigations        were   part of the Office           of

Special     Investigations         , which,    by force     of the Inspector        General      Act,

became    tbe Office       of Inspector        General.




The third major          component     will    be the Office       of Loss Prevention           and

Analysis.        This    new unit     will    initially     be located     in the National

Office    and will       be comprised        of two divisions         that will    be responsible

for the analytic,          research,     liaison    and planning         work    described      earlier.




The fourth       component,       the Organized     Crime     Investigations        Program      Coordination

Staff,    will    report    to the Deputy        Inspector     General     and is responsible

for conducting          investigations        of organized     crime     activities      in organizations

or programs       under    the jurisdiction        of the Department            of Labor.       There    are

14 Organized       Crime    Investigations        field     offices    which     work with      the

Strike    Forces    of the Department           of Justice     (DOJ) and are located

in cities     targeted      by DOJ°




The fifth     component       is the Administrative           Management        Staff   which    is

responsible       for providing        administrative        and management        support      to all

OIG components.




The sixth component,           the Internal       Affairs     Staff, will        be responsible         for

inspecting       OIG's    audit    and investigative        operations,         and recommending

action    to improve       and assure        the integrity     of OIG staff        and operations.

This   staff will        report    directly     to the Inspector        General.




                                                       - 14 -
B   Resources

    (i)   Current    Resources

          OIG had 355 authorized           positions    for FY 1979.         Since most        of

          these positions       were   new in the beginning             of the fiscal     year,

          OIG was not able        to hire many       of its needed        staff until     the

          hiring    freeze was lifted        in JanuaLy,        i979.     Since   then OIG

          has made major        efforts    to achieve     full    staffing.       As of

          September     30, 1979, OIG has a total             of 336 professional,          technical

          and clerical     staff on board:       158 in the Office           of Audit;

          75 in the Office        of Investigations;          81 in the Organized         Crime

          Program;     16 on the Administrative           Msnagement       Staff;   and 6

          in the Immediate        Office    of the Inspector        General.




    (2)   Future    Resources

          In FY 1980 OIG has been authorized               by Congress       to increase        its

          staff by 132 positions.            Audit    will receive        59 positions      for

          performing    unified     audits    of 17 complex        CETA prime

          sponsors     and Investigations       will     receive    37 positions.         An

          additional     36 positions       will be used        to plan and coordinate

          OIG work     in the manner       previously     described.        These   positions

          will   raise the total authorized             staff    for OIG to 487 positions.




                                                     - 15 -
(3)   Contract     Funds

      In addition     to work    performed    by its own audit         staff, OIG

      relies    on funds     to contract    with outside      auditors     to conduct

      a large portion        of its audits.       In FY 1979 OIG received

      $i million     in its own budget       for contracting       for audit

      services,    and an additional        $8 million    from the Employment

      and Training     Administration       for contract      audits   performed

      in the CETA program.         The bulk    of these      funds were     used

      to hire    Certified    Public     Accountants,    with    a much    smaller

      amount    provided     to state    and local   audit   agencies.       For

      FY 1980    Congress    has placed     $12.8 million       directly    into

      OIG's budget     for audits       of the CETA program       and $i million

      for audits     of other program       areas.




                                         - 16 -
CHAPTER     2.        AUDIT ACTIVITIES


A.   Audit        Responsibilities

The major        objectives     of the OIG's       audit   program    are to review         and audit

DOL programs        and funds     to ensure       fiscal   accountability,         regulatory       compliance,

economical        and efficient     operations,       and to seek improvements              in DOL

programs.




The majority        of OIG audits        relate    to funds    awarded      to DOL grantees,

subgrantees        and contractors.         Generally,       these are financial           and compliance

audits    performed       in accordance      with    annually     updated     audit    guides

specifically        designed     for each DOL program.            These     external      financial

and compliance        audits     cover    the following       programs.

     (i)         Comprehensive     Employment       and Training      Act    (CETA)

                 The amount     b_dgeted    for CETA for FY 1979 was $ii billion                    dollars.

                 In FY 1979, CETA        funds were    distributed        to approximately          460

                 state and local prime        sponsors      who   in turn distributed           funds

                 to approximately        40,000    subsponsors      and contractors.          The

                 number   of CETA prime      sponsors      will   increase       to 473 in FY 1980.

                 CETA funds are also distributed              to approximately         174 Native

                 American   Sponsors,      80 Migrant      and other      Seasonally       Employed

                 Farmworker     Program    Sponsors,       76 Job Corps      Centers      and 160

                 other contractors.         The number      of Job Corps         Centers    is expected

                 to increase     in FY 1980 to approximately              120.     CETA    audits

                 are very     complex    because    of the decentralized           program    operations.




                                                           - 17 -
(2)   State     Employment      Security    Agencys     (SESAs)

      The amount       of federal     and state     funds    budgeted      for employment

      security     and unemployment         insurance    programs       for FY 1979 was

      approximately       $13 billion.        These   funds     were    distributed        to

      54 states     and territories         to operate      over   2,400    local    offices

      providing     employment       services,     unemployment        benefit    payments,

      disaster     relief      and trade    readjustment      allowances.         SESAs

      operate     as a state-federal         partnership,       with    the DOL responsible

      for providing       basic    standards,      and administrative         funds       and

      direction.

(3)   Occupational       Safety    and Health      Administration        (OSHA)

      In FY 1979, OSHA          awarded    24 operational       grants     to states       for

      performing       safety    and health      inspections;      39 reimbursable

      contracts     for services       and research;        and 86 training         and

      educational       grants    to colleges      and universities,         trade    unions,

      industries,       and trade associations.             In addition,      OSHA awarded

      50 statistical        grants    to the Bureau      of Labor       Statistics        and

      5 statistical       grants     directly     to states     to accumulate        safety

      and health       data.


(4)   Mine    Safety    & Health     Administration       (MSHA)

      The Mining       Enforcement     Safety    Administration,         previously        a part

      of the Department          of Interior,      was transferred         to the Department

      of Labor    as the Mine        Safetyand      Health    Administration         and




                                             - 18 -
                reorganized       with    additional     responsibilities.           In FY 1979

                MSHA    contracts     and grants       amounted     to approximately       $13 million.

                These    contracts       covered    supplies,     construction       studies     and training

                conducted     by approximately          25 states     for mine      safety and

                health    programs.




Internal    audits       of the Department's           activities     are also      the responsibility

of the Office          of Audit.      To date,      87 program      and functional       areas    have

been    identified       as subjects       for internal        audits.      In addition,    nationwide

special    impact       studies    are conducted        of selected      activities      which      are

believed    to require        the special       attention       of Departmental        management.

These    audits    address       compliance,       efficiency     and economy.




B.      Audit    Universe    and Audit       Resources

In FY 1979 OIG had funds and                audit    staff     available     to provide    coverage

of approximately          half    of the annual        audit    universe.      OIG anticipates

that an additional          53 auditors        and 6 support        staff    will   be available

in FY 1980 to perform             unified    audits     of 17 larger        and more    complex

CETA    prime    sponsors.        We will    also have       $12.8 million      to contract         with

outside    auditors       to perform       audits    of the CETA program.




Table    1 is a summary          of the audit       universe     and audits     performed      in

FY 1979.        Table    2 shows     the audits      performed      during    the reporting         •

period    by performance          group.




                                                      - 19 -
                                                           TABLE     1


                                          Summary of OIG Audit Universe              and
                                                Actual Accomplishments



                                                   Universe                                   Accomplishments

Audit    Activity                          Total    i/   Annual     2/         ist Half FY 1979         2nd Half      FY 1979

CETA Title I, II, & VI Prime                 460              230                             70                     55
  Sponsor Audits

CETA Title      III Native     American     174               174                             61                  104
  Audits

CETA    Title   III Migrant     Audits        80               80                              2                      1

CETA    Title   IV Job Corps 3/              120              120                             --                     ii

CETA Subsponsor       Report             40,000          20,000                            3,840                9,910
  Reviews

ONP/OPER/Miscellaneous          Audits        85               85                             26                     19

SESA Audits                                   54               27                              9 4/                   8

OSHA Audits                                   55               27                              8                     1

BLS Audits                                    ....                                             1                      2

MSHAAudits                                    55               27                             --                      2

Internal     Audits                           83               29                              2                     3




i/     The total audit universe          represents      the total       number   of entities      for which     OIG
       has audit responsibility.

2/     The annual audit universe is the number of entities which OIG is required                                to
       audit in a year to maintain timely audit cycles.   Audit cycles vary from
       one to three years depending on the program being audited.

3/     The actual number of funded           Job Corps     centers       was    75 in FY 1979.        The anticipated
       number for FY 1980 is 120.

4/     SESA audits    covered federal administrative                costs and federal        benefits     and
       allowances.     State UI benefits were tested                in one audit.




                                                           - 20 -
                                            TABLE    2

                       Audits   Performed April 1 - September         30, 1979
                                      By Performance Group


                                                                                 Dollars      Percent   of
                                Number of                Percent    of           Audited      Dollars
Performance    Group            Reports Issued           Reports    Issued       (Millions)   Audited

DOL Auditors                         40                       19%                $1,806.6      73%

CPAs                                136                       66%                   336.5      14%

State and Local Auditors             20                       10%                   319.2      13%

Other   Federal   Auditors           l0                        5%                     1.9     --

TOTAL                               206                      100%                $2,464.2     100%




                                                    - 21-
Sisnificant     Activities

--   Unified     Audits     - The concept          of a unified       audit    of a single

     CETA prime       sponsor     and its subsponsors,              described     in the previous

     semi-annual        report,    is well on the way           to becoming          operational.

     As indicated        earlier,     fifty-nine       new audit       positions        are expected

     for Fiscal     Year     1980 which will          be used       for unified       audits         of

     17 CETA     prime    sponsors.         This will provide          a continuous          audit

     presence,     or residency,          that should        help    us to pinpoint          problems

     earlier,     make    audits     more    current,    more       efficiently       utilize

     scarce     audit    resources,       and lower     audit       costs.     We would          like

     to expand     residencies        to additional          prime    sponsors       in Fiscal

     Year     1981 if resources        permit.

--   Maintenance        of a Precedent        File     - A precedent          file has been

     established        consisting     of Opinions       of the Solicitor,              decisions

     by Administrative           Law Judges,        and Opinions       of the Comptroller

     General     which    impact     on DOL audit       operations.           This    file will

     assist    OIG auditors        in conducting        their       work    and in discussions

     with   program      officials     on the resolution             of audit     exceptions.

--   Surveillance        Audit    Guide     - As    stated    in the report          for the

     period    October     i, 1978-March           31, 1979,    we have       developed          a

     surveillance        audit    guide     to aid OIG personnel             in detecting

     internal     concealed       program     theft.     This       guide    contains       an

     internal     control     survey      section     as well       as fraud    detection

     procedures.         We should     complete       testing       of the guide       in

     November,     1979.




                                               - 22 -
D.      Significant     Audit    Findings     and Recommendations

During    the current     reporting        period,   OIG issued      206 audit      reports      which

questioned     $78.9 million.        _/     Since    only a sample       of all costs      are

normally    audited,     the dollars        that we have questioned           are based     on

actual    dollars     audited,     not on a statistical          sampling     projection      of the

total dollar     impact.        Table 3 depicts        the number    of reports       issued      and

dollars    questioned,        by program;     a detailed       listing    of these    reports

is contained     in Appendix        C.




Some of the more        frequent     and significant       problems       found    in D0L programs

were    ineligible     participants        in DOL grant    programs,        insufficient      documenta-

tion    of expenditures,         improper    allocations       of administrative       charges

and unresolved        questioned     costs    in subsponsor       audits.      Deficiencies        were

also    found in other aspects            of the administration          of DOL funds      by grantees

and contractors.         All too frequently          we noted:       (i) weak      financial      manage-

ment    and internal     controls;        (2) inadequate       accounting     systems;     (3) poor

cash management;        and    (4) lax property        management.        These,    and additional

problems     found in DOL programs,           and our recommendations             for corrective

action    are set forth below.




_/     Questioned costs are those costs for which there is either a lack
       of documentation  to support the costs' allowability,  or for which
       the documentation  showed that the cost was unallowable.




                                                      - 23 -
(i)   State and Local       CETA Program      Audits

      OIG issued     55 audlt reports        on state       and local       CETA Programs

      which   questioned     $42.1 million.          It should       be noted

      that prime     sponsors      are responsible         to the Department       for

      all CETA     funds granted      to them,      even    though    the program    may be

      administered       through    subgrantees.       A summary       of the major

      reasons     for the questioned        costs    is shown    below:

                                                       Percent       of Total
      Audit   Exception                                Dollars       Questioned

      Unresolved Subsponsor         Audit                              47
        Exceptions

      Improper Allocation of                                           12
        Administrative  Charges

      Insufficient     Documentation                                   i0

      Ineligible     Participants                                       7

      Other   Improper    Expenditures                                  4

      Exceeding    Budget                                               2

      Other                                                            18

      TOTAL                                                          100%



      In order    to illustrate       the types     of problems       we found,     several

      of the significant        state and local        CETA audit       reports    are

      discussed    below.




                                            - 24 -
--   We       found that CETA funds                               had been misappropriated                        byan      employee

     of a sponsor                         and several             outside       vendors.          Approximately

     $293,000                 of CETA funds were                     paid       to selected            vendors        who appear

     to have been                         involved        in the scheme.                A proper            system       of internal

     controls                 could have diminished                           the opportunity               for misappro-

     priation.                          The Department             of Justice          is currently               investigating

     t his m atter.                         _.--          .....                               '               _
          .   .-   .   .            .                                     •                        .                               .




--   In       one          report,          audit0rsquestioned                     approximately              $3.1       million

     (prime                level)          and     $1.5    million            (subgrantee         level).            A significant

     finding                was that the CETA prime                            sponsor       cash control             account

     had not been                         reconciled          with    a separate             city account             of CETA

     cash              transactions.                  The auditors              determined         that       the city

     account                 reflected             $473,241         more disbursements                  than the amounts

     recorded                 as disbursed                on the CETA records.                     A recommendation

     was made                 that the CETA cash                     control         account       should          be reconciled

     with              the city's            account          at once,          and that such reconciliation                           be

     a regular                  monthly            procedure.

--   In another                         report,     auditors         questioned             $446,000         (prime level)

     and $1,249,000                         (subcontractor                level) mainly            for lack of

     documentation,                         ineligible             participants,            wages       paid       in excess

     of the maximum                         allowable             under       CETA regulations,               and unresolved

     subcontractor                         audit reports.                 The auditors            issued an adverse




                                                                     - 25 _
     opinion     on the CETA financial           statements     as a result       of the

     lack    of control     over obligations         in total, and by individual

     subcontractors,        and the fact     that changes        were made       by the

     prime    sponsor     to subcontractor        expenditure     reports       without

     subcontractor        knowledge.

--   An OIG audit       of a CETA      program    questioned     $2 million       at the

     subgrantee     level.     The major     reasons       for these     questioned

     costs were     missing    participant        payroll     checks,    wage    records

     and applications;        nepotism;     improperly        approved    time cards

     for staff and participants;            lack of proper        source    documentation

     and failure     of    the contractor        to report     administrative          costs

     allocated    by program     activity.

--   An OIG audit       of a CETA program         questioned     $655,000       due to

     insufficient       documentation.       Personnel        action    forms    and

     notifications        of employment,     which    are necessary        to determine

     if salaries     paid    to the staff        are appropriate,        were    missing

     from    the personnel     files of staff members.             In addition,

     job descriptions,        required     qualifications,        results       of interviews

     or evaluation        of qualifications        could    not be located        for 42

     summer    aide positions.




                                                 - 26 -
(2)   Job Corps Prosram      Audits

      During    the reporting    period,    ii Job Corps    Center     audit   reports

      were    issued which   questioned     $5.3 million.      The questionable

      items in the samples       examined     are reflected    in the table below:

                                                        Percent       of Total
      Audit Exception                                   Dollars       Questioned

      Staff Salaries     and Fringes

        Exceeding     Contract   Budget                         18

        Unqualified     Staff                                   Ii

        Improper Certification         or                        6
          Licensing of Staff

        Insufficient     Documentation                           3



      Procurement     of Goods and Services

        Bidding     Procedures                                   3



      Equipment,     Construction     and Rehabilitation      Cost

        Unsupported     Accounts    Payable                     47

        General and Administrative          Costs                3
          not Accurately Applied

        Enrollee     (Corps member)     Expenses                 3

        Procurement     of Capital     Equipment                  2

        Insufficient     Documentation                            2

        Lack of DOL Approval                                      1

        Lack of Accountability of Non-                            1
          Expendable Capital Equipment

      TOTAL                                                    100%




                                      - 27 -
Two of the more         significant     Job Corps     Center     audit    reports    are

summarized      below.

--    A report     questioned     approximately          $3,000,000      primarily

      because     costs    reported     for equipment,        construction,       and

      rehabilitation        could not be verified.             The majority       of these

      dollars     were    resolved     when    the grantee     amended     the financial

      statements.

--    Another     report    disclosed     operating      costs    and general       and

      administrative        expenses     in excess    of the amount         specified      in

      the contract;        construction,       rehabilitation        and site consolidation

      which    lacked     prior approval;       and hiring       of unqualified         staff.

      Approximately        $623,000    was questioned        in the report        which    was

      sent    to the Employment        and Training       Administration       (ETA).



(3)   National     CETA Program       Audits

      (a)     Summary     of Native    American     Program      Audits

      During     the reporting       period,    OIG issued       104 audit    reports      for

      the Native     American    Program.        These    audits     questioned      $13.3

      million,     either    because     the costs    were     insufficiently        documented

      or improper.         The major     problem    areas    were:




                                                 - 28 -
                                                 Percent    of Total
Audit    Exception                               Dollars    Questioned

Insufficient       Documentation                              35

Improper    Allocations                                       24

Expenditure       Over Budget                                    8

Ineligible     Participants                                      6

Other    Improper    Expenditures                                4

Other                                                         23

TOTAL                                                        100%



(b)     Summary    of Migrant   and Seasonal        Farmworkers       Program     Audit      Activity

Only    one audit report      was issued.        It disclosed         that the grantee's

financial     management     system     (I) did not provide           for accurate,

current,     and complete     disclosure     of the cash position;              (2) did

not provide       records   which   adequately      identified        the source       and

application       of funds for grant-supported          activities;        and

(3) did not provide         effective    control     over   and accountability

for all funds,       property   and other     assets.       In addition,         the

grantee    did not maintain         cash disbursements       journals      for either

of the two CETA bank accounts            and did not have            an adequately

documented     plan for allocation         of the costs      of services         shared

by the CETA Title       III, Section       303 and other      grants      funded

by federal     agencies.      As a result,        $26,209   were      questioned.

It was also recommended         that     $3,604 be disallowed           because     there

were    allowance    payments   to ineligible        participants        and costs

incurred     after   the expiration      of the grant.




                                         - 29 -
      (c)     Summary of Other National Programs, Office                       of Policy,
              Evaluation and Research_ and Miscellaneous                       Audits

      During     the period,        OIG issued    19 audit      reports       on grants     and

      contracts       under    the Older Americans        Act and for research              and

      evaluation      work.      The audits      resulted      in $304,743       of questioned

      costs as shown          in the table     below.

                                                         Percent    of Total
      Audit     Exception                                Dollars    Questioned

      Ineligible      Participants                                      47

      Insufficient       Documentation                                  28

      Other     Improper      Expenditures                                7

      Improper Allocation           of Administrative                     3
        Charges

      Exceeds     Budget                                                  2

      Other                                                             13

      TOTAL                                                            100%



      Enrollee     costs were       questioned    because      their    incomes     exceeded

      the allowable        limits     for eligibility       under   the Older       Americans

      Act;    costs   were     questioned     for insufficient         documentation

      because     of incomplete        or missing     intake    forms.

(4)   State Employment          Security     Agency   Audits

      OIG issued      eight     State Employment        Security    Agency       (SESA)

      audit    reports     during     the period.       The questioned         items   in

      samples    examined      were    $17.9 million.




                                              - 30 -
                                                                                                  Percent         of Total
                                 Audit Exception                                                  Dollars         Questioned

                                 Improper Allocation of                                                     46•          i•
                                   Administrative  Charges                                                                _        •_•

                                 Insufficient        Documentation                                       ' ,•37.,,_-.•• _•_,




":7._.I_'::i/"i   '   " i:   "   TOTAL'.      :"ii!."i".":".'      :" .:."/ 'i:'i     .:'_i ':-:i_:.... .i=:i:i00%,, .        ..     " )_?!':i::'::'i:ii.:):?.
                                                                                                                                                        :.ii;.' :./-.."   .



                                 One    SESA audit report               questioned            $2;337,000            for contractual;                      ,ii " ,:_

                                 service     agreements •which were made without                                  obtaining               either         •i
                                                                                                                                                          •_•

                                 competitive       bids or the required                       prior•approval                   of the Employ-

                                 ment    and Training             Administration.                 The audit              also disclosed

                                 that material          weaknesses            existed         in the SESA's                   Accounting

                                 System,     and ADP            transactions          from the SESA's                    Accounting

                                 System were       not retained.                    Recommendations               were made               for

                                 corrective      action           on each of these                findings.




                                 Another     SESA report            disclosed           a wide        variety            of management

                                 problems     such as inadequate                     controls         over       returned            benefit

                                 checks;     lack of procedures                     to insure          that the claimant                     was

                                 available     and actively               seeking         work;        little        or no effort

                                 to collect      overpayments               from claimants;                 and inadequate                   billing

                                 and collection           procedures            for judgments                issued           against        employers

                                 for contributions.                 The report            also       found       that since               the Social

                                 Security    Administration                 no longer           allowed          the state               to match




                                                                                        - 31 -
      benefit       payments    to wages     reported     on the Social       Security

      files,       the SESA had inadequate           controls     to detect    unemploy-

      ment    compensation       overpayments        and payments       to ineligibles.

(5)   Special       Impact/Internal      Audits

      Three     internal    audits    were    completed       during    the period,     two

      of which       are summarized      below.

      --      An    internal    audit of Federal        Employees'       Compensation

              Act    (FECA) periodic       roll case management           was performed

              at the request       of the Assistant           Secretary     for the Employment

              Standards     Administration        (ESA).       In the 220 periodic           roll

              case files we examined,            deficiencies      were    found     in 174

              cases.      Deficiencies       in the adjudication          of claimants'

              initial     eligibility      and in the monitoring           of claimants'

              continuing       eligibility     were    the principal       problems.         A crossmatch

              of 180 selected        claimants       to State    Employment     Security       Agency

              wage    and unemployment        insurance       records    disclosed     that

              17 claimants       had employer-reported           earnings     and 12

              claimants     had received       unemployment       insurance     benefits;

              all 29 claimants        were    also    receiving    Federal     employees'

              compensation       for total disability.




              We recommended       that ESA direct         improved      compliance     with

              Office    of Workers'      Compensation         Program    requirements        and

              revise    certain    procedures.         We also    recommended       that     they

              increase     utilization       of their    existing       automated     case




                                                     - 32 -
     management     file, develop       a definition        of "total      disability",

     and require     periodic       crossmatches       of total     disability

     periodic     roll cases with       appropriate        wage    records.

     Corrective     action was       taken    in accordance       with    some of

     our recommendations.


--   The office     of Inspector       General       has completed       an internal

     review   of contract         and grant    close-out     procedures       in ETA.

     The Objectives        of the audit       were    to determine:

     --   whether     procedures       used    for handling        close-outs    are

          consistent        with    OMB Circulars       A-f02     and A-IIO;

     --   the number        of completed       or terminated        contracts

          and grants with           outstanding       advances     or unreported

          costs;     and

     --   the amount        of interest       cost    (advances     had not been

          liquidated        or returned       to Treasury).



     In summary    we found:

     --   a need     to revise       close-out       procedures     in order     to

          fully comply        with    OMB Circulars;

     --   an excessive        number    of contracts        and grants      pending

          close-out        with    outstanding       advances     or unreported       costs;

     --   failure     to deposit       refund     checks    on a timely       basis.




                                    - 33 -
                    In order     to improve     the close-out      process,      ETA has

                    established     a short-range       priority      to eliminate     the

                    backlog,     and a long-range       priority      to establish     adequate

                    controls     to prevent     similar    accumulations        in the future.

                    In addition,     ETA has:     (1) issued     instructions        to clarify

                    the reporting       of close-out      activity,     (2) provided        training

                    for Federal     Authorized     Representatives,        (3) provided

                    technical     assistance     to prime    sponsors,     (4) hired        a

                    contractor     to expedite     close-outs,        and (5) implemented

                    a tracking     system     for close-outs     and for the settlement

                    of audit     questions.




E.      Audit Resolution and Significant           Recommendations        Made     in the Last
        Semi-Annual  Report

Since    the period   covered     in the first     semi-annual        report    of the Inspector

General    (10/1/78-3/31/79),       DOL management        has continued        to emphasize

the need     for correcting     audit    resolution     and debt      collection     shortcomings.

Data    systems   for tracking     audits,    accounts     receivables,        and debt

collection     are under   development.




Tables    3 and 4 depict    resolution       activity     in the current        reporting       period,

and    the age of unresolved       audits    as of September       30, 1979.




                                                - 34 -
The number     of unresolved    pre-CETA    categorical    audits   has been    reduced

by 57% this fiscal     year but the total number          of unresolved     reports

did not decline.      The Employment       and Training    Administration      has recently

established     an active   program   which   includes    monthly   assessments     of resolution

activity    and a time-table     for eliminating    the Department's        audit   resolution

problem.      The program's    objective    is the timely    resolution     of CETA state

and local as well     as pre-CETA     questioned   costs.     OIG will    continue    to

monitor    this effort.




                                                - 35 -
-   36 -
-   37 -
CHAPTER      3.           INVESTIGATIONS       ACTIVITIES


A.     Objectives          and Responsibilities

At   the outset,          it should     be emphasized       that the following        material

relating      to the OIG's          investigative      program      describes     the organization

and activities            during    the reporting      period.       As described        in detail

elsewhere,         the structure        of our organization          has recently        changed.    The

results      of investigations           described     below    reflect      activities     begun    at an

earlier      time under        the prior organizational             structure.

       (i)        Grant Fraud,       Employee     Integrity     and Workers'       Compensation

                  Grant    fraud investigations         deal with      allegations        of fraud    in

                  the CETA program,        in other     DOL grant      programs,     DOL contracts          and

                  in various       other programs      administered         by the Department

                  (e.g., Trade Readjustment           Act).        The Employee     Integrity       area

                  encompasses       allegations     made    against    DOL employees.         Workers'

                  Compensation       investigations        cover    fraud    involving     payments

              made        to claimants     under     the Federal      Employees'     Compensation

                  Act   (FECA),     the Black Lung Benefits           Act and various        other    related

              Acts.




              The majority          of OIG investigations            conducted     in the reporting

              period       resulted     from    complaints      received      from Congress,        the

              General        Accounting     Office     (GAO),      the public,     the media,       other

              Federal        agencies     and internal       DOL sources.        These    complaints




                                                       - 38 -
      are in the form of GAO hotline              summaries,    DOL hotline

      complaints,     letters,     newspaper     articles     and Incident

      Reports,     a DOL form used by DOL employees              and CPA firms        for

      reporting     instances     of suspected      fraud or abuse.




      In addition     to conducting       investigations       in response      to a

      specific     complaint,     the OIG is now beginning            to conduct      pro-

      active    investigations      in selected      high-risk       program   areas.

      The Fraud and Abuse Prevention             Survey,     which    is a form of

      pro-active     investigative       work,    is discussed       in more   detail

      in Chapter     5 of this report.




(2)   Organized     Crime

      The Department        of Labor's    Organized    Crime     INvestigations

      Program    was established       in coordination        with    the Department         of

      Justice    Strike     Force Activity       in order    to participate      in

      investigations        relating   to labor     unions    and labor    laws administered

      by DOL,    and to aid in the implementation              of programs      designed

      to control     organized    crime    activity    in the labor-management

      area.     This effort      is a high priority         of both    the Justice

      Department     and DOL.




                                          - 39 -
                There   are 14 Justice        Department        Strike    Force    Offices    located

                in major   cities     with    OIG Organized        Crime    Investigative         staff

                assigned   to each.      All investigations              are conducted       under    the

                guidance   of the Justice           Department     Strike    Force    Attorneys.




B.      Case Workload      and Investigative           Resources

As of September         30, 1979, OIG had 777 open grant                  fraud,    employee      integrity,

and workers'       compensation       cases.        These   investigations         were   being    conducted

by 44 field agents.            As of September         30, 1979,     the OIG Organized            Crime

Program     had 323 open       cases,   being handled           by 74 investigators.


                                                    TABLE   5

                              SUMMARY   OF CASES       OPENED     AND CLOSED
                              April   i, 1979 - September           30, 1979

                                             Complaints
Case    Type                                 Closed    i/        Cases   Opened           Cases    Closed

Employee       Integrity                        8                          117                       25

Grant    Fraud                                137                          272                     148

Workers'       Compensation                    35                           67                       85

Other                                           9                            4                        1

Organized       Crime                           8                          157                       23

TOTAL                                         197                          617                     282



i/     A complaint is defined as the original notification  of an allegation.
       Complaints which are unsubstantiated  allegations or which should be
       referred to other DOL program agencies (e.__, safety violations
       referred to OSHA) are closed.   Other complaints are given case numbers
       and investigated.




                                                    - 40 -
Cases      are     frequently          not    investigated               in    the          order       they       are    opened.


Because       of      staff     limitations           and       the    large        geographic                areas       that      must       be


covered,         the     investigators             have     sought          to maximize                 their       effectiveness


by   working          several        cases    in the        same       geographic                 area    or       by    working         related


cases      which        stem    from     a single          investigation.                     Deadlines             imposed         by


statutes         of     limitations          and     priorities             within           the    U.S.       Attorneys


Offices       often       require        resources          to be        diverted             to    such       priority          cases.

In   the     Strike       Force       Offices,        it    is    ultimately                 the    chief          attorney's


decision         as     to which       case     or    cases       are       to be           actively          investigated               and

which      are     to be       closed.




C.      Significant             Investigative              Findings           and       Action          Taken


        (I)        Employee          Integrity

        --         An    OIG    investigation              revealed           that          five    DOL       employees          in      the


                   Office       of    Accounting           had    received              a    total       of    $13,000         by


                   manipulating           computer-generated                       payroll          checks.              Two   of     the


                   employees          have    pleaded           guilty        and       pleas       on    two       others       are


                   expected          shortly.         Restitution              of       the       funds       is    being      made.


                   Administrative             action        has       been     initiated                against          all   five       employees.


        --         An    OIG    investigation              of    a complaint                 of    an    illegal          appointment


                   has    led    to    the    termination              of     an    ETA       manager.              The     investigation


                   was    coordinated           with       the    Office           of       Personnel          Management             and




                                                                        -    41-
      the Department          of Justice.        Repayment       of the manager's         salary

      for the term of illegal              appointment        is currently      being

      negotiated       by    the General       Accounting      Office.




(2)   Grant    Fraud

      (a)     Comprehensive       Employment        and Training       Act    (CETA)

      --      An OIG investigation             into the misapplication           of CETA     funds by

              a director       of a subgrantee          has   resulted    in a guilty       plea    to

              two counts       of making       false    statements     in violation        of Title      18,

              USC,    Sec.    i001, and a four-year           prison     sentence.        Approximately

              $84,000       in CETA    funds    were misused.

      --      After    being    indicted       on 26 counts      of CETA      fraud,    the director

              of a 1978 Youth Program             has pleaded        guilty    to two counts        of

              embezzlement       of CETA funds.           Approximately        $15,000     of CETA

              funds were       misappropriated.           This   individual      has received        a

              six-month       prison     sentence      and three     years    probation.

      (b)     State Employment           Security      Agency/Unemployment        Insurance        (SESA/UI)

      --      A joint       OIG/Postal     Service      investigation        into the alleged

              fraudulent       issuance     of Trade      Readjustment        Act payments        by a

              SESA    employee    has resulted          in a 17 count        conviction     of theft

              of government       property       and mail     fraud    and a sentence        of

              18 months       in prison     and 5 years       probation.        The employee

              had    issued    fraudulent       checks    for approximately        $79,750.




                                                 - 42 -
      --         A    joint          OIG/FBI          investigation                    disclosed              that        officials

                 of    a    State          Employment                 Security             Agency      reported             false


                 placement                figures       which           resulted             in DOL           supplying

                 additional,                   unjustified              funding             of    hundreds           of     thousands


                 of    dollars             to    the    agency.                  The former            director             of     the


                 agency          and       two       other        individuals                have      been         indicted


                 for       conspiracy,                submission                 of    false        statements              and


                 possession                of    false        documents.                    ETA     has       been        notified


                 of    this          problem          and     has       said          it    is    taking           corrective

                 action.




(3)   Workers'             Compensation                Programs


--    Investigation                   by       the    OIG,        and       by    other          agencies           with        the


      assistance                of    the       OIG,    detected                 a total          of   $441,420             in     actual
                                                                        J

      overpayments                   of    benefits           toldlaimants.                       Such        overpayments               were


      due    to       fraud          on    the       part     of       claimants,                aided        in    some        cases     by


      their          physicians,                attorneys              and       representatives.                         While       sufficient

      evidence             to    sustain             criminal           convictions                 was       not     obtained           in


      many       cases,          the       OIG       obtained           enough             evidence           to    terminate            benefits.

--    A    conservative                   estimate           of       the    future          cost        to    the        Government


      of    an       average          Federal          Employee              Compensation                 case        is    $180,000.


      As    a result             of       13    investigations                    conducted              during           the     period,


      sufficient                information             was           developed             and     furnished              to     the


      Office          of    Workers'             Compensation                    Programs           (OWCP),           which        administers


      the    program,                to    prevent           an       estimated             $2,408,475               in    future        overpayments.




                                                                  -    43 -
--   The results       of a number      of OIG initial          investigations        , together

     with    comments     by prosecutors       and judges,          disclosed    that a number

     of forms used        in the compensation           claims     process     were    subject

     to serious     abuse.     These       forms   were     analyzed     by OIG and recommenda-

     tions have     been made       to OWCP    regarding        the changes      needed.

     Joint    planning     for additional          changes     is in process.

--   A series     of Fraud Alert        Seminars      was    initiated       in OIG's       Field

     Program     Fraud    Investigative       Offices       to educate       investigative

     personnel     from    several     Federal     agencies        in the systems          and procedures

     of the Federal        Employees'       Compensation       program.        Because       of our

     limited     staff,    OIG has needed          to rely heavily        on the investigative

     branches     of employing       agencies       in the investigation          of fraudulent

     FECA    claims.      Continuing       staff    limitations       make    it necessary

     to continue       to solicit      such assistance.

--   An example     of our activity          in this area was an investigation

     into an allegation        that ten former            employees      of the U.S. Navy

     Base    in Charleston,        South    Carolina,       were   working     in private

     industry     while    receiving       FECA payments       for temporary          total

     disability.         Of the ten people          investigated,        one pled

     nolo    contendere     (no contest)       and another         pled guilty        to

     violations     of Title       18, USC, Sec.        i001    (false    statement).

     They    were both     fined    and placed       on probation.           Six had




                                             - 44 -
      their FECA benefits          terminated     and no action      was taken

      against     the other    two.      These   investigations      detected


      $85,922     in overpayments.         Future    losses   of approximately

      one million       dollars   were    prevented    by this project.

--    An OIG investigation          in Missouri      revealed    that a man who had

      applied    for a job with        a local    police   force was receiving            FECA

      benefits     for temporarY       totaldisability.          He pled guilty       to one

      count of Title        18, USC,     Sec. 1920     (False Statement         to Obtain

      Federal    Employees'       Compensation--a      Misdemeanor).        He was

      fined and placed        on probation.




(4)   Orsanized     Crime

--    The five most       influential      officers     of a large     Teamster     local

      that dominates        the New Jersey       garbage   industry      were    convicted

      for racketeering        violations     and crimes       relating    to the abuse

      of their positions          in order   to obtain     unsecured      bank    loans,

      and to influence        the operation       of the union's       pension     fund.

      The magnitude       of the fraud was demonstrated            by the collapse

      of certain     of the banks        involved     upon default     of the suspect

      loans.     Jail    sentences     ranged    from 6 months     to 7 years.

      The investigation        was conducted        jointly    with other       Federal

      agencies.




                                             - 45 -
         --   A former     top-ranking       Teamster     official       and reputed    high-

              level    syndicate     member     in New Jersey,          and three    of his associates,_

              were    convicted     of racketeering.            The principal       figure was              !•_•

              •sentenced     to 20 years      in prison;        terms    of imprisonment     for _his       "_i•


              associates      ranged   from     7_to 20 years.          This•/!nVest•igation,/•il/ii_{_i•i_i_iiii•

     •        conducted      jointly   with    other     Federal    agencies,disdloSed           the • _•

              "sweetheart"        practice    in which union        officers     agreed    not                     •

              to enforce      contract      provisions     favorable       to their •members,

              in return      for substantial       bribes       from employees.

         --   An official      of a Laborer's          union    in New Haven,       Connecticut,

              and a high-ranking           syndicate     figure were       indicted    as accomplices

              in the embezzlement           of union     funds.     This,    too, was a joint

              investigation.




D.       Problems    Identified     as a Result        of Investigative        Activity

         --   Recovery     of Overpayments        Detected       by the OIG

              Since OIG investigations            of OWCP began,          there has been a

              dramatic     increase    in the amount           of overpayments       detected.

              Many    of these     cases    involve     individuals      who no longer      have

              compensation       payments     due them and do not have retirement

              contributions       or deposits     with     the Civil       Service    Commission.

              In tbe past, overpayments           have been        collected     by voluntary




                                                          - 46 -
     payments     from claimants,       deducted    from future       compensation

     payments,     or assessed      against     the claimant's       Civil    Service

     retirement     contributions.        OIG believes       that a system of collection

     measures     should    be implemented       within    OWCP    so that overpayments

     of funds are properly          recovered.      OWCP    has been     informed    of

     OIG's   recommendation,        but has not fully        developed       a program    for

     the recovery     of these overpayments.

--   Problems     in the Unemployment         Insurance    Program

     Due to alleged        abuse,   an employee     protection       act passed

     by Congress     and administered         by State     Employment    Security

     Agencies    has received       criticism     from    the media,    the

     public,    and Congress.         A committee    appointed       by the Secretary

     has recommended        changes    in the procedures          for administering

     the Act.     These     changes    should    solve    some of the problems.




                                         - 47 -
- 48 -
CHAPTER    4.        ADP REVIEWS

A.   Responsibilities           and Functions

The automated       data processing        (ADP) reviews     conducted       by the OIG's ADP

Division     constitute       the Department's     evaluation       program    for computer

facilities       and systems.      The following        are brief    descriptions       of the types

of ADP reviews       conducted:


     --         Application     Evaluation     - An evaluation       of a computer       system

                from three perspectives:          (i) whether       or not the system          is

                designed   according      to management     direction       and meets    legal

                requirements;     (2) whether     the system       is effective,     efficient

                and economical;     and    (3) whether     the system has proper          operational

                controls   and is auditable°

     --         Security   Evaluation     - An evaluation         of the security       of software

                and operating     systems,     primarily    from    the perspective       of

                unauthorized     access    to critical     data    files.


     --         Operational     Evaluation     - An evaluation       of the complete        operation

                of a data processing         activity    in terms    of viability,       efficiency

                and economy.

     --         Centralization     Review     - A review    to determine       the relative

                system   life-cycle     cost of centralized,         as compared     with      existing

                and other modes       of ADP operations      from the perspective           of

                cost to federal       grant programs.




                                                  - 49 -
         --      ADP Cost Determination           Review       - A review      to ensure     that    incurred

                 costs are reasonable,           allowable       and equitably       recovered.




B.      Workload     and Resources


The universe        of data processing           installations         either    totally     or partially

funded        by the Department        of Labor    includes       52 State      Employment     Security

Agencies        (SESAs),    approximately        25 of which       utilize      centralized     state     facilities;

CETA    state     and local prime        sponsors      with    DOL-funded       computer     installations

operated        in conjunction       with    SESAs;    and 4 facilities          utilized     by the Department

of Labor.         There    are approximately          50 application          systems    (computer     programs

designed        to satisfy    user    needs)     operated      at the 4 Departmental           installations

which    are of particular            interest    to OIG because         they:      (i) are national

in scope;        (2) are of significantly             high cost;       (3) play a significant

role    in the management         decision-making          process;      or (4) affect        disbursement

or control        of resources.




Six positions        in the ADP Division           were    allocated      to these       evaluations

and reviews.




C.      Significant        Findings    and Recommendations             Made

We are pleased        to note     that progress         has been made         on all of the ADP

review    recomrendations        made       in the last       report    (See Appendix       D for

a list of these recommendations).                     During    the current       reporting     period,

OIG has issued        reports    on 7 ADP reviews             (These are listed          in Appendix

E).     Of these reviews,        3 identified          significant       problems       or deficiencies

and are summarized           below.




                                                        - 50 -
    --   A centralization        review    found    that thestate         was proposing

         a transfer    of administrative           control     of the State       Employment

         Security    Agency     (SESA) computer       facility        away from    the SESA,

         using    information     system consolidation           provisions       contained

         in OMB Circular        A-90.     OIG found    that such a transfer           was beyond

         the    scope of A-90     inasmuch      as neither      state    information      systems

         nor computer     facilities       would    be consolidated;          the net effect

         would    be an elimination        of prior    grantor        approval    associated

         with    the grant agreement        without    any offsetting          financial       or

         operational    benefits.         OIG concluded        that the state       plan did

         not constitute       a valid centralization            proposal.

    --   An operational       review    found    that the SESA had acquired              a major

         computer    system     without    prior    grantor     approval      and had extended

         the life of a systems          architecture         that had been       initially

         acquired    without     competition.        OIG recommended          that the SESA

         conduct    a competitive       procurement        to replace     the existing         computer

         system.

    --   An ADP cost determination           review    found     an over-recovery         of

         $1.4 million     resulting       from charges        to the computer       center

         users.     OIG estimated       that between         30-40%    of that amount        came

         from the Federal        grantees    and recommended           that   such monies

         be returned.      The Department          of Health,     Education,       and

         Welfare    is in the process        of effecting        recovery.




_                                                  - 51-
CHAPTER        5.           FRAUD PREVENTION        AND DETECTION      ACTIVITIES

During     the six months            of this reporting         period,     OIG has increased          its

efforts        in the area        of fraud    prevention       and detection.        The following          is

a description           of some on-going         activities       in this area and some

new   initiatives           which    have been      implemented.




A.    On-going          Activities

         (i)        Fraud and Abuse       Prevention      Surveys     (FAPS)

                    As described      in the previous       report,      FAPS    is a preventive        form

                    of investigation        which    is used    to identify       and correct      crime-

                    conducive    conditions      before    fraud    and abuse      occurs.       FAPS are

                    undertaken      by three-person       teams     (including     an investigator,

                    an auditor      and an analyst       familar    with    the program)      which     are

                    assigned     to survey    a DOL program        or grantee,      check    for the

                    existence    of necessary       management      systems      and controls,        identify

                    systems    weaknesses     and recommend        changes      in procedures.




                    Since   the implementation         of the FAPS program,          we have completed

                    surveys    of CETA prime        sponsors    in Mobile,      Alabama     and the

                Cherokee        Nation,     Oklahoma     and of the Wage-Hour         Office     in

                Glendale,        California.         In addition,     we presently        have   underway

                a FAPS        of a CETA     subsponsor     in Milwaukee,        Wisconsin.




                                                           - 52-
(2)   OIG Manasement       Information       System

      It is crucial       to develop      and implement       a management       information

      system    which will      satisfy    OIG's    information       and reporting          needs.

      The audit     tracking     portion     of the new system         is currently          in

      program    testing;      implementation       is planned       for later    in

      Fiscal    Year   1980.     The investigations          portion    of the system             is

      currently     in the research        and planning       stage.

(3)   Trainin$

      The Inspector       General      has recognized       that OIG auditors          and

      investigators       must have      additional     training      in the detection

      of fraud and other         crimes    involving       federal    monies    if OIG is

      to be successful         in accomplishing        its purposes.          Since    April

      1979, approximately         25 auditors       and investigators          have attended

      the White     Collar     Crime    Seminar    offered    at the Federal          Law

      Enforcement      Training     Center    at Glynco,      Georgia.




      Given    the newness      of the Offices        of Inspector      General,       training

      programs    do not yet exist which            meet    all of the unique          skills

      and training      needs    of these     offices.       We will    be examining

      those training       and development         needs    which    will   improve     the

      skills    and capabilities         of our entire       staff    to effectively          deal

      with    the kinds    of program      initiatives       this Office       will _e

      undertaking.        Our goal is to have a comprehensive                  training       and

      development      plan    prepared    within     the next      several    months. _




                                             - 53 -
B.   New Activities


     (i)   Review     of the Summer       Youth    Employment       Program

           The Office      of the Inspector         General       devoted     significant      resources

           to reviewing        the Summer    Youth     Employment       Program      (SYEP) this

           summer.      Our decision       to allocate       resources        to this purpose

           was attributable,        in part,       to the February           20, 1979 GAO

           report     (entitled    More    Effective       Management        is Needed    to Improve

           the Quality      of the Summer         Youth    Employment       Program)     on the

           1978    SYEP, which     found     that there were          significant       problems

           with    the Department's        efforts     to assure       that state       and local

           governments     were    operating       quality       programs.




           The OIG effort        to improve       the 1979 SYEP program             involved   both

           audit    and investigative        offices.        The audit        effort was extensive.

           Using    both   CPAs and DOL auditors,            the OIG reviewed           the SYEP

           at 29 Prime      Sponsors.       Eighty    worksites        at each      of these   Prime

           Sponsors    were    reviewed.       The objective          of the review was          to

           asse'ss worksite       quality,    paying       particular       attention     to whether

           or not meaningful        work    was being       provided;       to assess     whether

           Prime    Sponsors    and subsponsors           were   monitoring        the program        as

           required    and doing     appropriate          follow-up     work    on the monitoring;

           and to test      time, attendance         and payroll        procedures       to determine

           if there were       any ghost     employees.          Onsite     work   included

           interviewing       participants        and supervisors,          visual    observation,




                                                       - 54 -
and scrutiny       of time and attendance          procedures.       In addition,

paycheck     distribution      was reviewed     by the auditors.          ETA was

promptly    notified     of specific      programmatic       problems    uncovered

by the auditors       so that immediate        corrective      action    could

be taken.




This    review    of the 1979 program       by the Office        of Audit   was

unprecedented       and involved      a significant        allocation    of our

resources.        The Prime    Sponsors   which     were    chosen   for the review

work    included    a mix of urban,       rural,    and Balance      of State

Prime    Sponsors.      The composite      of the review       should    result    in

a balanced       and representative       report    on the 1979 Summer       Youth

Employment       Program.     While   the onsite     work    for the audit       has

been    completed,     the results     have not yet been         fully   evaluated.




The Office       of Investigations      was also directed         to prepare      for        i




a major    effort    with    regard   to the 1979 Summer         Youth   Employment

Program.     We expected       a significant       number    of referrals    for

investigation,       in part because       ETA had planned        an extensive

special    monitoring       program   for this year's        program.     This    special

monitoring       group was to target       its efforts       on those Prime       Sponsors

where    the majority       of the problems     were   expected      to exist.




                                       - 55 -
      All of our Field        Investigations     Supervisors        were    informed

      that   investigation      of Summer    Youth     Employment     Program    cases

      was to be a priority.          However,    for reasons        that are as yet

      uncertain,     the number    of allegations        referred     for investigation

      has been many     fewer     than expected.        At one point,        we identified

      processing     problems    within    ETA which     resulted     in a delay

      in the reporting        of ETA's    complaints     to the OIG.         The Inspector

      General     has worked    directly    with management         officials    in ETA

      to resolve     this problem.

(2)   Department     of Labor    OIG Whistleblower        Hotline

      The Department        of Labor's    OIG Hotline     is a telephone,        mail-

      in, walk-in     complaint    program.      The main    thrust        of the Hotline

      program     is to elicit     investigative       and audit     leads    from

      employees    who ma_ have knowledge           of criminal      conduct,    waste    or

      mismanagement.         The Hotline    officially     began     its operation

      on July     24, 1979, and has received           approximately        66 complaints

      alleging     fraud,   mismanagement      and waste.      Some of these

      complaints     have been    programmatic        and are more     appropriately

      handled    by the program      offices,    while    others     involve    fraud

      or other wrong-doing        and have     been    investigated        by OIG.




                                           - 56 -
(3)   OIG Follow-up       on General    Accountin 8 Office      (GAO) Hotline        Complaints

      OIG is the conduit       for all complaints          received     through    the GAO

      hotline    concerning    Department       of Labor    programs.      Upon receiving

      summaries    of the complaints          from GAO, OIG determines        whether

      the complaints       should   be handled     within    OIG or by the appropriate

      DOL agency.        From April    4, 1979, when       OIG began     receiving    complaint

      summaries    to August       27, 1979,    OIG had received        118 summaries

      from GAO.        Of those,    71 were    forwarded    to the proper     DOL agency

      for administrative       handling.        The remaining    are being        handled

      within    OIG.




                                              - 57 -
U. S. Department   of Labor            InspectorGeneral                                    ._
                                       Washinq,onD.C.20210

                                                               APPENDIX A


         ,_D _I     "ii'!!                                     Page i of 7


      MEMORANDUM       FOR:      All   Organized  Crime        Field   Offices
                                 and   OC Personnel



       FROM :                    RONABD GOLDSTOCK             ?.
                                 Deput;, inspector        General

       SUBJECT:                  Organized      Crime    Prograra   Planning


       This memo is the first step in what I expect will be the
       development   and implementation     of a comprehensive    OIG
       program   in the area of organized     crime/labor   racketeering
       control.    It is the product    of my thoughts    and the insights
       of a number   of OIG personnel    who have spent a considerable
       amount of time thinking     about what we ought to be doing.

       I start with the premise       that control    of organized   crime
        (see attachment    for definition     of terms) will not be achieved
       by the standard     practices    used to control    other  types of
       crime.    It is not sufficient       for law enforcement    agencies    to
       investigate    isolated   crimes,    solve them, and present     them to
       a prosecutor    for formal proceedings.        The concepts   of investi-
       gation,   prosecution,    and incarceration     must be employed     as
       part of pre-determined       strategies,    if they are to be effective
       in an organized     crime context.

       This idea is hardly new.    In 1929              John Landesco          concluded   in
       his classic work, O__anized   Crime              in Chica__0_:

                "Crusades   arouse public     sentiment    against   some existing
                abuse or disorder,     but they are so sweeping        in character
                that they are usually      only temporarily      successful     and
                a reaction   sets in against      them.    One reason    for the
                failure of crusades      against   crime and vice is that they
                seek to endorse    some general     policy    of law enforcement.
                They are seldom    or never based on a study of the pro-
                blem.   What is needed      is a program    that will deal with
                the crime problem     J_n detail and consecutively,         thfs;:is
                by analyzing    the crime situation      into its diff.erent
                elements,   by taking    up each crime situation        sep,?[rate].y,
                and one by one.working       out 3 constructive     solution."

       And yet, fifty years later,    the           single greatest' d.eficiency            "in
       virtual].y every organized  crime            control unit in the United
                                                               APPENDIX   A     (cont'd)

                                                                Page   2 of 7


States,   is the    failure  to develop     comprehensive              strategies
to address    identifiable     problems    in the organized               crime
area.   Without     the formulation     and execution     of           a coherent
strategy,     impact    on targeted    criminal     activity    can only    be
haphazard.       The   incarceration     of an underworld       figure
generally     disrupts     an individual     enterprise,     only   until
new   leadership     is established.       The disruption       is,   thus,
often    only  minimal,     and   the effect    on the general      problem
negligible.

To be effective,       a general     strategy,     designed     to effect
more   than  individuals      or individual       enterprises,      must
necessarily     take   into   account    the   long-range      implications
of daily    operational     tactics.       Ultimate    success,     if it can
be achieved     at all,    will   be the result       of years     of eroding
the foundations      of the targeted        criminal     activity,     rather
than   a number    of spectacular       investigations       ending    primarily
in headlines      for public     consumption.

That    is not    to say that       individual      cases   are not      important.
They   obviously       are,  but given       limited    staffing      and   financial
resources,      we can no longer          afford    the luxury      of conducting
investigations        which    do not have       a significant        and lasting
impact    on organized       crime     activity.       A nun_er     of OIG investi-
gators    have    indicated     that    there    are occasions        whe_L _e might
well   consider      undertaking       investigations        that would      not tend
to advance      a specific      strategy.        For example,       offices     might
decide    to make     cases    that    are   likely    to receive      substantJal
publicity      to demonstrate        their    effectiveness        and to provide
a basis    for public       and professional         support.       Certain     matters,
too, may     have    an important       symbolic     value,    and    they   should    be
considered      for that     purpose.        Indeed,    one   strategy      to be
employed     might    well   be symbolic        impact,    particularly       where
current    and    likely    resources      preclude     any realistic        hope   of
having    a real     impact.      Still    another     reason    for undertaking
a specific      investigation,        might    be to cooperate         with   an
agency    to provide       a basis     for   future   mutual     aid.     I concur
with   these    specific     targets      of opportunity.          However,     I feel
that   the bulk      of our    resources      should    be devoted       to partici-
pation    in pre-determined          strategies      which    have    a long-lasting
and significant         impact.

To put these      concepts     into    practice,      I would    like   each   field
office    to prepare     a mission       statement     and strategy      papers
so that    we can    agree    upon    a set of realistic         and concrete
goals   keyed    to a specific        timetable.       These   planning     docu-
ments   will   also   provide      some objective        standards    by which
we can measure       our   overall     program     effectiveness      in the
organized     crime   area.
                                                                     APPENDIX   A (cont'd)
                                                                     Page    3 of 7

Each   office     should    prepare     one   mission    statement      to   include:

       --       A description   of the geographic             jurisdiction
                covered   by the office.

       --       An assessment       of the organized        crime    problem      in
                the area     including      (I) a thoughtful        analysis      of
                the current      and projected       organized      crime     activ-
                ity in the area,         the relative      strength      of such
                activity     in particular       unions,    industries       or
                locations,      the importance       of certain       individuals
                in maintaining        or expanding      organized      crime     in-
                fluence,     etc.,    and    (2) an assessment       of where      OIG
                investigative       activity     can have     the greatest        and
                most   lasting     impact.      In addition      to areas      in which
                corruption      is known      to exist,    consideration         should
                be given     to unions      or industries       which     orqanized
                crime    syndicates      may be attempting        to infiltrate.

       --       A statement       of mission      in which   realistic     program
                goals    are specifically         stated.    A goal     is not an
                investigation,        or a series      of investigations;         it
                is what     is meant     to be accomplished        through     the
                investigative        work.     These   goals   should    be suffi-
                ciently     specific     and targeted      so that    implementation
                strategies      can be devised        and so that     progress     toward
                achieving      these    goals    can be meaningfully       tracked.
                For   example,      "elimination      of labor    racketeering       in
                jurisidiction        x" would     be too vague.       The greater
                the specificity         of a goal,     in terms    of union,
                industry,      location,      etc.,   and of desired      end
                results,     the better.

Secondly,     each office should   prepare     strategy    papers    for each
goal   identified   in the mission     statement.      These   papers   should
include    the following  information:

       --       A discussion      of alternative        strategies      to achieve
                the goals.       The discussion        must   take   into    account
                the impact     that    each   alternative      will    have    on the
                targeted    activities,       syndicates,       areas,    etc.     For
                example,    will    incarceration       of an individual          or
                group   of individuals        cleanse     the union?       Can an
                investigation       focus   on bribe-givers         who corrupt
                large   numbers     of union     officials?        Is it possible
                to conduct     investigations         solely     for the purpose
                of developing       informants      whose    information      would
                prove   valuable     in succeeding        cases?     Would     public
                disclosure     of corrupt       activities      foster    overt    dissent
                by honest     union    members?
                                                                     APPENDIX A (cont'd)
                                                                     Page 4 of 7

       --     A   consideration        of    available        remedies    and   investi-
              gative    techniques.      Investigation,         prosecution,      and
              incarceration       are clearly      the most      important     remedies
              available     to law enforcement          agencies.       However,     you
              should    consider     civil   approaches       as well     in the
              development      of these     strategy     papers.       Also,   this
              discussion      of alternative       strategies       should    include
              estimates     of the probable        reactions       of the various
              components      of the criminal        justice     system.      For
              example,     can we, given       the specific        circumstances,
              expect    substantial      sentences      upon    conviction?       Con-
              sider,    also,    the investigative         tools    available,
              including     the use of electronic            surveillenceo

       --     A recommended      strategy    and action    plan   covering
              staff   resources     to be utilized,     projected     timetable,
              and evaluation       plan,  i.e. how we will      know when     the
              program    goal   has been   achieved.

In   order   that   the    structure        of   individual       field   offices    be
compatible      with    the assumption      of innovative         and   sophisticated
cases,    and implementation         of strategies,         investigators        should
be assigned       to teams     or modules.       Each    module     should    consist     of
four   persons      headed    by a senior     investigator       with     supervisory
authority      over    the members     of the    team.      This would       result    in
close    supervision       and guidance     while     giving    the supervisor
adequate     staff     to conduct    the   investigative        work.      To the
extent    possible,       each  should    be composed       of investigators         with
diverse     investigative       experience     and should       include,      where
feasible,      an investigative        accountant.        In recommending         an
organization,        the supervising       agent    should     list    the qualifi-
cations    of each      of the individuals        and his/her        area    of expertise.

Certain    members     of OIG have      expressed    the need     for and the
desirability      of using      the case     agent  method   rather    than   the
"team   approach."        It is my view       that  the establishment       of these
modules    is not    necessarily       inconsistent     with   the use of case
agents.      The team     supervisor      can assign    individual     responsi-
bility,    for certain       aspects    of the project,      to an investigator
who will     then   become    the case     agent.    Of course,      in large
investigations,        it makes     sense    for the team    supervisor     to be
the case     agent.

The agent    in charge    of the office       must   exercise   supervision
of each   of the established        modules.       In addition,    he/she
should  have   direct    supervision     over    one or two agents      who
can handle    more   limited    investigations       on an ad hoc basis.

For  the purposes         of the strategy     papers,     you        should    assume
stable  personnel         resources.     However,     if you         fee]   that you
cannot  undertake         priority   projects     highlighted           in your    analysis,
                                                                        APPENDIX A (con t'd)
                                                                        Page 5 of 7


please    indicate       in     the strategy    papers       what     additional
resources     would      be     required.

I want    each    supervising      agent    to be personally       responsible
for the development          of these      materials.      However,    I hope    that
you will     consult    with    others     in OIG and knowledgeable         persons
throughout      the law enforcement           community    in planning     these
projects.       Consultation       with    the Attorney-in-Charge         of the
Strike    Force      is obviously       a necessity.       Since   the projects
resulting      from this     planning      effort    will  be the major     focus
of our program,        you might      consider     holding    an all-day    brain-
storming     session    with    your    agents    and others     to begin   thinking
about   and developing        a mission       statement    and strategy     papers.

Further,     I want    to emphasize      that    the documents       resulting     from
this planning       effort    will   not be set in concrete.             It is clear
that   almost    every    investigation       will    add to the office's        under-
standing     of the    structure     and operations        of the underworld
and the labor       scene    within   the office's        jurisdiction.        Indeed,
as investigators        add   to their     experience,       they will    add new
skills,    learn    new methods,      develop      new insights,      and attract
knowledgeable       sources     of information.          As a result,     these
papers    will   be periodically        reviewed      and if needed,      revised.

 So   that   we   can   reach     consensus    soon    on    mission      statements      and
strategy    papers,    I am requesting     that draft  materials    be sent
to me two to three       weeks  after   receipt  of this memo.      Your
materials    will   then be reviewed     in the National    Office.      Hope-
fully,    by the end of October,       we will  have  an established
organized    crime   program.

 I recognize       that    the establishment         of missions       papers     and the
 utilization       of pre-determined          strategies      have   not been       tradi-
 tional    approaches       in law enforcement.            Indeed,     even    among    those
 who  agree     that    the use of a mission           statement     and    strategy
 papers    is ultimately         a good    idea,    there   is concern        that   the
 shortage     of personnel,         high   caseloads,      and press      of operational
 duties    make    the development         of these     materials      an unaffordable
 luxury.      I    find    it difficult       to concur     with    that    position.        If
done    properly,       the use of such        devices     will    inevitably       conserve
 resources      and manpower       by focusing       investigations,         producing
 more   rational      selection      of cases,      and avoiding       wasted     and
 unnecessary       investigativetime.             Thus,    while    the drafting        and
 establishment        of mission       papers    and strategies        are difficult,
 time   consuming,       and require,       what    Judge   Learned      Hand    termed
 "the intolerable          labor   of thought,"        we literally       can no longer
 afford    to do without         them.


My goal    is that we,   in OIG-DOL,     be,  and be perceived,       as the
best   agency  in the organized      crime   control    community.     I
believe    the first  step  in achieving      that   position    be the estab-
lishment    of the mission   papers     and strategies,      and that    the
second    step be their    implementation.                  It   is   essential    that    you
give   these  matters   priority    attention.
                                                                APPENDIX A (cont'd)
                                                                Page 6 of 7


Bob Nicholson,      Stu Eder   and   I are available    at any    time  to
discuss    or expand   upon   this memo.    If you have     comments    about
the memo    or the efficacy      of the mission    s_tatetuent arid/or
strategies,    please   don't    hesitate  to let _e know      about   thera.

I am planning    on receiving    a draft     by October   19th.    We can
then work   out  a date   for discussing      the proposals     and reaching
a consensus    on the organized    crime     program.

Attachment
                                                                        APPENDIX A (cont'd)
                                                                        Page 7 of 7

                  A_j_pendix   --   Definition    of   Terms


The   term "organized     crime"   is     obviously   subject      to   many
meanings.    At the very      least,      it can be thought        of   as being
an "enterprise,"      "syndicate,"        or "venture."



"Enterprise"      - an
                     •  ;
                          organized    crime  "enterprise"      is a criminal
group   that   provldes      illicit   goods  or services      on a regular
basis.     An exemp]e      would    be a narcotics     wholesaler    and the
cutting    crew.    Thus,     it is a criminal      firm   or business
organization.



"Syndicate"     - an organized       crime     "syndicate"     is a group    that
regulates    relations     between     various     "enterprises."       It may
be metropolitan,       regional,     national,      or international      in
scope.     It maybe     concerned      with   only    one field   of endeavor,
or it may be concerned         with    a broad     range   of illicit    activ-
ities.    A "syndicate",       therefore,       is a criminal     cartel    or
business    organization.        It fixes     prices     for illicit   goods
and services,      allocates     black    markets     and territories,      acts
as a criminal     legislature      and court,   sets criminal    policy,
settles  disputes,      levies    "taxes",  and offers   protection
from both   rival    groups    and legalprosecution.



"Venture"     - a "venture"       is a criminal     episode   usually
engaged    in for profit       by a group.      It may   be the hijacking
of a truck     or the robbery        of a bank.     It is "organized     crime"
when   members     of the    "venture"   have   access    to superior  criminal
resources,      including     capital,   skilled    labor,   outlets  for
stolen    property,     etc.



 For purposes      of this memo,       I emphasize     syndicate      crime
 because    it _s my belief       that    the greater     threat     to society
from    organized,     as opposed      to random,     crime    _:esults   from
 syndication.       Simply    state,    syndicates     provide     their    members
 with   the ability     to capitalize        on oppo_._tunities,      as a result
 of their    connections     with    diverse    individuals       and activities,
 as well    as providing      them access      to capital,      corruption,      and
 the use    of force.      The more     sophisticated       the structure       and
 membership     of the syndicate,         ti_e more   difficult      it is for
 law enforcement       to disrupt      the criminal      members     and  their
 activities.
                                                                                       APPENDIX      B
                                                                      •   :.           Page   i of       1




                                                                           ._




                                    l_




             , I,,   _>_,,o                                                 ,..,.
                     _-°_                                   ..             __                        !



      _,4.            _                  '




      i              _
     •I  !
                      o_
                      ..a
                                                  ,
         I




     F'._F




                      '.._   l==i            ,.       ,,         ,,             I,.4

                                                                           i,,-I f,_
                      f_,,_                           • .




_.                                                                                ii    i
                                                                                                                         0




                                                                                                                      u
                                                                                 D                               _    o
                         _0                                        _            .H             0            O0



0                     •                                            0_                                            _
                     _0                                            _.H_O                                    0



0            _           _        _   _                                I    _   _    _    _    _            _    _    _       _                 _


             _       _        0       •    _           _                        _    0    00        _   0   0    _   _        _         _   _   _       _       _       _        "_

             Z                _       _    _     _             _   _        _   _    _    _    _    _   _   _    _    _       _                     _   _       00




                              0       _          •             _   00           _    _    _    0   -_       0    _    _       _     _       _   _       _       •

                      •       0           -_     •     ._ •        _        _ •       _    _ 0     ._ ._ 0           0        _      00          _ _            _        _
             Z       Z        _           _     _      _ _         _       _ _       _    _ _      > _ _'            _       _      _ _         _ _             _       _        0




                                                                                                                                                                                 0



     m               _        m                  o                                                                           I I I                  i       i       i
                     _                    __oo__                                                                     __o_                                                            •
                     _                    oo_o__ooo_                                                                 _ooo__
             _        ii                  OOlOOOO_OOOO                                                               _O00HHH_
             _       UO                    I1_1111111111                                                              IIIIIIII
             0        I I                 _ _     I _ _                    _    _    U_            _                 _ _ _ _                                    _                0



             _           II                IIIIlllllllll                                                                 IIIIII10
         I   _           II                lllllllllllll                                                                 IIIIIII_
             <       O0                   0000000000000                                                              00000000




"0   _




     _       _   !   O0                   0000000000000                                                              00000000



                              0                                                      000_                   0        "H             .H.H.H.H'H.H



                     •        0            •     _         _   •   •       _    0    0    0    0    _   0   0        _       _      _       _   _       _       >_ _


                     _        _           _      _         _   _   _       _    _    •    •    _   _    _   _        _       _      _       _   _       _       _       _        0
                     Z        _           Z    Z       Z       Z   Z       _    _         _    _   _    Z   _        _       _      _       _   _       _       _       _    "_




     o
     _                                                                                                                                                                       ,




                     oo                                                                                                                                                                  _
                 C   _        _           ._   -_      ._ ,H ._            ._   ,_ ._ -_ -_        ._   ._ _         <       -_ "_ ,H "_ ._ ._ -_                                _       _
                     00                   _      _     _       _   _       _    _    _    _    _   _    _   _        _       _      _       _   _       _       _       _    _-_




                     oo                   ooo0ooooooooo                                                              oooooooo                                                m I
                        oo                                                     _
                       •_._                                               _

                        _                                                 _o                o
                        _                                        _        0_
                       •_'_                                       o       _
                        _                                                 _                 0

o                       _                                        _        _



o           _           _     _    u       _       _._       _   _    _   _     I   _             _       •
                        o     o    o       o _           _   _   •    o   _    •    _             _       _


                       _           o       o       _     _   _   _        o_        o_            _       _       _                                       0



                        _     _ _          _             _ _ .H       o   _    • _ Z              _       _             o   o       o   o       o   o _
            O_          0     o_                   •     _ 0_             _    o _                _       _       ___                                  o

                     . ._     ._ _         _       -_    _   _    m _     0 _       0       _     _       _       0 _       _       _   _       _   _     _




                                                                                                                  _111111_
                                                                                                                  _000000_
                                                                                                                  _000000_
                       __                                _                                                        0__0
        0              0000                              O0               _0_00                                   _   I         I   I       I   I       I _
                        I t            I       I          I I             __oo                                     I __                                       I
                       __o_oo
                       oo_o_                                              oooo_
                                                                          oooooo                                  ___ _
                                                                                                                  _         _       _   _           _
            _           Iltlllll                                          O_M_                                    _111111_
            0          _         _                       _                 I I          I    I        I       I    I __                                       I
            _           IIIIIIII                                          __                                      _111111_
            _          ___                                                0__                                      I 0__                                      I
            _          ___0                                               0__                                     _0_000_
                 _     ___                                                000_                                    _00_000_
                       ___                                                __                                      _000000_
        I   _           IIIIIIII                                           I11111                                  IIIIIIII
            __   i      IIIIIIII
                       00000000                                            IIIIII
                                                                          000000                                   I_0_1
                                                                                                                  0__0




    o   _


        _   _    <     _           _                     _                o_        _       ooo                   o   oo            o   oo          o     o

        _   _    <     0o0o0ooo                                           oo0ooo                                  oooo0ooo




        0               __                                       "H            ._
                        __                                       -_            o

                       _ _         _       _       "_ "_ "_ "H            _ _        _      _ _           _       ._ ._ ._ ._ ._ ._ ._                    _
                        __                             _ _                _         _       _._           o        o o o o o o o                          _
                 _      _     _    _       _       _     _   _            _    _    _       _     _               ._ -_ ._ ._ ._ .H .H ,_


        0




                 c                                 "_ ._ ._ _             ._                     < _              ._._._
O0   000   0   0   0   0   0   0   0   O0
                                                                                                                     N
                                                                                                                    ._
                                                                                                                     4-1



                                     _                          o     _   h     •       o       o                   o                _                 u_




o               O              o               ,.-.-I _ u_ _              I:_           _u ._           ._      _          _-.__-.__       ::I         ,._
u_              L_        _          =     _:_ _    _           o     _   o     o       •       •       _       o   .,_ _o co z:           o       C           b,




                          o _--I     _     _ -_ ._ •            _         0     0 _             ,-_ _               _      I= _l           _            •      o
                                                                                                                              -l¢

         0"_
         r_
         ,-4

         d¢¢3                                                             ,-4 _---IP't                  _
                          c,'1 cxl           _ _ _                        o o o                         o           o      o o _D          _           cxl     oo
                _-_       O O                 I I I                        I I I                          I         O      O O o"_           I          I      O
         ,-_    _         O O        o'1 _-I o00   o_ ._"                 _--_O _--I _-I                O             I     I I I          ,-4         o4       I
                o           I I      o _'-__D o '_o o                     o o o o                       oh.         r.J    O (._ r_        O           -3"
                _         r-_ u_     Cxl I o ,-I _.-I c_                  ._D ',.D o'_ o'1              cq            I     I I I           I           I       I
         •_     _._       O ¢xl       I _D I I I I                         I I I •I                       I         r'._   o00'_ ,-t       O           oo
         O-,    _           I !      pzl r_ U _-1 (D _-1                  _._ U _/} _n                  _o          O      O O _           o_          O       o'_
          0        _      _1 _.-I     I _-I I I I I                        I I      I I                   I         0      0 0 -,,1"       0           O_      0
                E_ _        I I      O'_ I 0'_ Q'_ O_ 0'_                 O',, 0", 0"_ O_               0'_           I     I I I            I          I       I
                _ i:_i    oo oo      r-. U r_. r-- r-.. r_                r,_ r-. r-. r_                r--         o',    0-,0'_o0        r-.         r...    o',
          I     Q _        I    I     I    I    I   I      I"    I         I        I       I       I       I        I      I    I     I       I           I    I




         i,-i   O Z       P'_ P--    I_'- r_. P_ r'_ I"_ r'_              r'_. r_, P"_ I_- r_'_                     I_" P_ r_ I'_" "       _           _
                      _   ',.D ._"   o"_ _     _'_ ,.o ._" rTM            o'_ ",.o r_. I'_- _-.I                    _-I _       _/h _-I    o           ¢'_     o

     Q   _l     [.=1_     r'_. o_    oo r'_ ._D I'_ .q- o0                -_.. r._ r_. r-.. _r_                     oo oo oo oO            oo          o0      oo




     Z   _      _ _       oo         ooo            ooo                   oo            o       oo                  oooo                   o           o       o


         O                                                                                                                                              _




         _,               _          o._ o o _.,_                         _ _ _-_                                          • ® o                        _


                          o    _     o     _   o    o     Z     =l        0     0       _       _       _           _      Z    Z    Z     0           _       l>
         0
         E_




                                           o                              o     o



                          _ O
                          [-_Z       [_
                                     _     _'n
                                           o D._
                                               _ __       __    [._
                                                                r._       _"n
                                                                           O _0 O
                                                                                r_ o3
                                                                                   r.=l o'_
                                                                                        r.:l                        Z O
                                                                                                                    O Z O
                                                                                                                        _ O
                                                                                                                          Z                O
                                                                                                                                           _           O
                                                                                                                                                       _       O
                                                                                                                                                               Z
         _        _00            _00000                         _       _0_0_0_                            _       _     _    0
         _         Ill            llllll                            I    IIIIII|                               I    II    I    I
         _         III            llllll                            I    illlil}                               I    ii    I    i

         _        _              _00_                           _       _0_0_                              _       _     0
    •        _    _00            _00_00                         _       _0_0_0_                            _       _     _    0


     I   _         III            IIIIII                            I    Illllll                               I    II    I    I
         HM _      111           IIIIII                             I    IIIIIII                               I    II    I    I




o   _


×   <    _        _o             ooooo_                         _       _oooo_                             _       _
    _             ooo            oooooo                         o       ooooooo                            o       oo    o    o

    m


    0




                   _     _   _    _       _   _     _   _   _   _       _          _   _   _   _   _   C    0       00    0   0
             _1   _              __                             o       o          o   o   o   o   o   o   _       _     _


                  <<<            <<           <<_           <   <       <<             <   <<<<            _       O0    0    U
    0




                   Ill            IIIIII                            I    IIIIlll                               I    II    I    I


                  000
                  ZZZ            000000
                                 ZZZZZZ                         Z0      0000000
                                                                        ZZZZZZZ                            0
                                                                                                           Z       O0
                                                                                                                   ZZ    0Z   0
                                                                                                                              Z
                                                                                                                                                                    _                                                          cO


                                                                              _                           _                                             ._           _      O_                                                 r'_




                                   _    _                   0 _-_              0      'J           0      "_                   ._ _-q      _            _            _             0             0             0               •




               E-_         _       _    _            _      0     _       _   _o _-_               0      _-_ D                 O     0                _            _       _      _             _




               Z           ._      -H   _            _      _     _       _    _      E_      •   -_       _      _        _   r-_ ,H _                -_       ._ '_       _I 0                 0             0              _:_



I_             f-_ Z       _1                   CO _1 _--I _              _                                _1 _-_                          0       0                _=Z::E-_ _             .     _       .     _       .,-I          .__


               o_ o"
                  _ _ __.__"
                      _ _.. _ _ o_ _o
                           ,-_
                                   _ .__.'___
                                      . , _ o _o.
                                    _ _
                                              _oo_._
                                                o
                                                   _ _ _=_=_..
                                                     •
                                                         ' __ ___ _.__
                                                            I_
                                                                  :_ _
                                                                  o       _    _      N       _   _       _       _       _     _     _    _       _    _       o    m      ._     u       ._    u       ._    o       ,<      _"_
               <-_          o _ o                   _ _ •                     -_ •                 _._ _                        _ o _                   o            _ _-_                      .,_           -_               _
               Z      0    _       _    qD          _       o_ _              _       Z           _       _       _            _     _     _           Z            _D _           _            _             _               o_ _




       p_




       d
       m



       ,._     !_            I   I   I                I    I   I                I    I             I        I       I            I   I   I               I            I  I    I                   I             I               I   I
        1_     O           _..) _D _D               U ur, D                    F..D _.D           L_      L_      r-..._       r.D rJ L_                _           r,_ L_ r,._                 _             _               r.J r,D
               I_            I   I   I                I    I   I                I    I             I        I       I            I   I    I              I            I  I    I                   I             I               I   I
        •_     [-=1        _,"_ O oo                c_ u_O                    u_c_                O       O'_     u_           ,--I u_ '.4D            '_O          O O0 ,--I                   ,--t          ,--t            r_r._
         O.,   0_          ,--I cxl O               ,--I r-_. r._             r._00               Cm      ,--I    ,--!         c_l oo r._              ,--_         eq ,--I u'_                 Lr_           L_              O_.1

       r_      _ _          I  I  I                  I  I         I            I  I                I   I  I                     I  I  I                 I            I  I   I                    I             I               I  I
               I--I !:q    O_ Oh Oh                 O0 _         Oh           oO Oh               _'_ O0 _                     O_ Oh _                 O0           O0 Ch (_                    Oh            Oh              O0 Oh


           I   _      ,_       I    I       I           I    I        I           I       I           I       I       I          I    I        I            I           I    I         I             I             I            I     I




 o     _
       _--_    0      Z    I'--P-- I",.             _       I'_ "r'_          I'_. I_'._          I'_ P_ r'_                   r._ P_ I'_              _            _       I'-_ P_             _             _               P_ r'....


 _<$   <_      E-I .,_     ,--I O       ,.-I        ,--t ,--I ,--t            ,--IO               O       ,--I cN              ,--I ,.--I ,--I         ,--I         ,-.I ,--I ,-I               ,--I          ,--t            O,--I




                      !
 Z     f.u]    _           O       O    O           O       O    O            O       O           O       O       O            O     O     O           O            O       O    O              O             O               O      O

 0-_   o_      [-=1


       r..o


       O                                                                                                                       4-} .1_

       r.T-1                                         Zl                                                                         _     _D

                            0       0    0          ",_                                                       _                 _ _ "_                  _            _       _ _                 C_            C_              _ ._
       E-_                 "_      "0   "_          ._ _ _                                         _          _                ,._ ,._ _                _            _       _ _                 _             _               '_ 0
       _-_                  c_      _    _           _ _ .,.-I                                     _      (_ ,_                     0 _
                                                                                                                                r,..}                  _:_0"         O0      O0 O0               O0            O0              _
                      _     _       _    _           _ .H aO                  0       0            _      _ _                   _ _ ,-_                ._           .H      .H ._               .H            -_              "_


                            0      0    0            0      ,-4 (D            _       _           _       _       0             _    _     _           "_           "_ "_ "_                    "_            "_              ._ .H

       0



       I--I
       M




                           _-4 _--I b-.I            I-.-I F--I h-_            _-,I I--I           I--t I.--I _-I               F--I _-.t l--I          I,.-4        I-,11--tl--4                _-4           I--4            _-I F..4

                     g      I  I         I           I  I         I            l I                 I  I           I             I  I       I            I            I  I          I             I             I               I I
                           ZZZ                      ZZZ                       ZZ                  ZZZ                          ZZZ                     _            Z_Z                         Z             Z               ZZ
                     D_    O O          O           O O          O            O O                 O O             O            O O         O           O            O O          O              O             O               O O
                                                                  ,-_ .,q                          0                                                    _


                                           o     o                _    m                   _       m    >_       _                                      _                            '_   o


                                  •,_      ;:> _                       _      ,4_         .,._     03 _          p_,                   _                ;>      _D ,-_ ,--I Z             o




,--I                r.D           0,0"_          (U      @ 0           _i     0     ,-o    _            _        _     0       [._   0_0        _        I       _ .z:_ ,z:_ 0            _ "0

 0                  [-_                          _       m_ @          _      0 [-_ E              _j r_ _       _j            _) 0        _            _-_ 0    0 ¢_ _              _-_ "0




                                  •H ,.C:: ",'_          O         •   ,--_ O              _       O    O    O   _     •       _           I_   1_ @             _ _         _       _    E    (_




              d
                                  _.40           ce'_    O _1          _--I   o,I         -...1"   ,.D u"3 (_ O0 -._ r--I              (_ u"3                   ,--I t¢'_    ,--t --.T _D c-I
                                  O ,--t         '..ID   ',D c_l       '..D   -_          O        c_ r--- o"_ c,_ r'_ c_              ',.DO                    ...a'-u-'_   m o.J O ,--I
               ¢1    _            ,--I _--t      O       O O           O      CD          O        O OO           O O O                c_ O o'_                 OOO                OOo'_
              ,._    _              I   I          I       I   I          I     I           I         I   I    I   I   I   I              I  I --a"               I    I       I    I   I   I
                    O             q.P 0           r,D     _.D <-_       _,P   r,D         _         r--D L'_ r,-P _--1C-D F_D           r'D r"..PO               qD r"D      r"D CP r'D ED
              0     I_              I   I          I       I   I          I     I           I         I   I    I   I   I   I             I   I    I               I    I       I    I   I   I

              I:_   I:_           O o,,I ',.o            .qD C_l .,.o <1"                 O        c,_ o0 o_ o_ 00 c',q                ,--I O           -,1"    ..::1-,.o ,.D Cxl O            u-_
                          r-_     ,--I r--I O            O O O O                          0        O O O O O O                         -<1" O           O       OO        O O O                c'_


               I    I_              I       I        I    I        I    I      I            I       I    I   I   I     I        I          I        I    I       I     I      I       I   I     I
              o_    _     i        I        I        I    I        I    I      I            I       I   1    I   I     I        I          I        I    I       I     I      I       I   I     I



       [--t
       Z
       r_                 _-




              I:_   ,_,_,]_       r-.      r--   P-.     oo ,..1- r-- oo                           oo                  o0o_            -..1'-o0o0               P.- r--. r-.
       Z      r._   rj_ ._        O        O     O       O O O O                          O        O O       O   O     O O             O O O                    O O O                O    O    O

       1:_    _     [-_ C

              v_

              C_
              0                                                                                                  _     _
              g_q                                                                                                O     O        O                                O    O      O




              ::_         _        I:I I::I _             _        _   _      _            .u      _    ._   ._ .u     _       _           _    _        _                            _        O
                          H       •H-,_ ._               .,w .,_ o o                      o        o o o o o o                             • _J _               • • • • • .._
                          _       x_ _ _                 _ _ _ _/                         _Z       _ _ _ z z z                             z z z                z z z z z o
              0




                          g            I     I       I        I    I    I      I            I       I    I   I    I        I    I          I        I    I       I     I         I    I    I   1
                                  ZZZ OO
                                  O                      OOO
                                                         ZZZZ                 O           O
                                                                                          Z        OOO
                                                                                                   ZZZZZZ        O     O       O           OOO
                                                                                                                                           _Z_                  OOO
                                                                                                                                                                ZZZZZZ               OOO




                              o
                                                                                         .Z:     _                                                                .-_                                                  I_i                                            O

                                                                        O                ,-40                                                                     _                                                    ",'4             O                    "_      IZ


                                                       m        O,_                                               I_                            .H        _       _                                                    O               _


                                                _      ,.c: ,-_ .H               E_              _: _             _                0       0     _        _       rn                          N                        0               E-_                           -_                       .H

                                       O        _      ,-_ O           [-_ ,__Z,.o               ._      rj       ,Z_              _       _    _.P               _        ,Za                O                                        mD            _       _       _        (D (D IZ

                                       _       OO O            u,_ _            ,-4      )._ ..           _:              ",_ _            "-    C:       _                 .        _       rn                        _       O       "             ._ "_                    C: "-           O

                      0                _       u_ _._                  _        0                _       ,.C_0             I=              0    ,,-4.H ,.C_                         ._        _       ,.0              ",_ ,_ _                 _    (_ [--_0                _-_ E_

o                     0               "_                        O _             _-_ ,.z:                 _        _        O       <D _          _                 _        _       E-_ _              _       _o      _       Z       _D _                  _       OD _            _        _



O                     Z                O -H _ Z                         _        O       _       _ .H             _        _       t_0 _         _       ._        :_                O _               :_              _       .,_ O ,._ _                   _-4 m           _       I_ _
                      O      r-T.-1   _.D _ g--_                       -_       "H       <       E'_ "_           Z       .,-_     _   ¢)        _        _        0 ,_             ._ _               0       _       >       "_ 0   _   _                      _           _       _--4



                      P_ Z             _       -_ _0            _      _D Z              _       _
                                                                                                 O                _       _                O )-4          _                 _       "O        O                _1      _1              ,--t          (D       _       _              •        O


                                                                                                                                                                                                                                                                                              ,i



              r_

              ,-4


              d
                                      c_l O            L._ C_ "_T r_                     -q" cNI c_ c_ u_                          O_           u_ r_. _o cN o_ u_                                    _        _o ._...._.             oO            o_ rW _O ,--I ,--t


              ,..O    _                 I        I      I    I          I         I        I        I      I       I        I       I            I         I        I      I  I  I                     I         I      I        I       I            I   I            I       I       I     O
                I_i   O               r'_      rJ      C..Dr,-P        <D       r-P      r'_      r..P   _P       _D      r,D      C_           rJ        _D      C.D r--D C..Dr.D                    <D       _-_     QD       _       rJ           rJ r-.D         r,D     [.D     r.D       I
                      _                 I        I      I    I          I         I        I        I      I       I        I       I            I         I        I       I I  I                     I         I      I        I       I            I   I            I       I       I     rj
                      r._             o_       _'_     u-_ _,-)        oo       q-       o       (N      ,--t     O       _r)      O_           O_       q-       _ O_ m. CXl                         _        _")     _N      r_      ,--I          OO OO           O_      O       _         I
               O..    IZ_             Lm,      ,--I    O"_ C_I         C"q      OO       _.O     C_      O_       OO      C_I      C'q          OO       r"       "..-I" r'_ O r_                     c_       r--     o'_      O       O           r'_ ._"          O       oO      o'_     _T
                          D_          c_       "._     O O             O        O        O       O       O        O       O        O            c_       O        c_ O ,-I O                          O        c,'l    O       ._"     _1"          c,") o_          ._"     _       _       c_
              oo      H _               I        I      I    I          I         I        I        I      I       I        I       I            I         I        I       I I  I                     I         I      I        I       I            I   I            I       I       I     O
                      )-_ _           oO       oo      o'_'o_          o_       o'_      om      o_      om       o_      o'_      o_           oo       o_       oo om o_ o_                         o'_      oO      O_      cO      oo           oO cO            oO      oO      oo        l
               I      _      _             I       I       I       I        I        I       I       I        I       I        I       I             I        I        I        I        I        I        I       I       I       I        I            I       I       I       I       I    0'_


     I_I     0",
    -         ,--I
     [--.i

    o         _


    _x_       _       _               ,--I ,--I ,--I ,--I ,--t ,-I                       ,--t ,--I O              O       ,--I O                ,--I ,-4 ,-I               ,--I ,-I          0        0        ,--t 0          ,--I ,--I            ,-I      ,--t O          O       O        ,--_



    D_        OO      r-=l


              F-T-1          _        O        O       O       O       O        O        O       O       O        O       O        O            O        O        (D O              O        O        O        O       O       O       O            O        O       O       O       O       O
              r._


              O                                                                                                                                 "_        _I       _        _        _1 _

                                                                                                                                                 _     0 0 0 0 0 0                                                             _       _             I= _            I= _            _
              O_                                                                                                                                ,--_ ,.-_ ,-_,-_-_ ,-_ ,-_ .-_                                                 0       0             0 0             0 0             0
                                               ml _I _I _                        _       _       _        _       _i                             _     _ _ _ _ _I _I                                                           _       _             ._ _            _ _             _       .,_

                                                o o             o       o        o o              o o o                    _       _                                                                                            I_ _                 _        _       _       _ _ _
                             _.                ,_ ,_           ,_      ,_       ,._ ,_           _: _ ,._                  O       O             0_ _= ,_                  _        ,_ ,_             _                        .H "_                ,H       ._      .H      .,_ ,-40

                             E_
                             oo       O        o       O       O       O        O        O       o       O        O       O        O            _        r_       _        r_       _        _        _        _       _       _._                  _        _       _       _       _       _
             O



             I.-I




                                       I       I       I       I        I        I       I       I        I       I        I       I             I        I        I        I        I        I        I       I       I       I        I            I       I       I       I       I        I

                                      ZZZZ               Z ZZZ                                           ZZZZ                                   ZZ       ZZZZZZZZZ                                                                                  _ZZZZZ
                                      I--I I-I I--I I--I _-t I--I I--I I-I
                                      OOOOOOOOOOOO                                                       _-I I--I I--I I--I                     }-I I--I I-I i--I I-I I--I i--I I--I I--I I--I I--I
                                                                                                                                                OOOOOOOOOOO                                                                                         I-I I--I I--I I.-_ I-I
                                                                                                                                                                                                                                                    OOOOOO                                   I--I
                _0                  ___                             _0__
        _       000_                0000000                         000000
        _        IIII                IIIIIII                         IIIIII

        _        IIII                   IIIIIII                         IIIIII

            _   000_                0_0__                           _0__
        H        fill                IIIIIII                         IIIIII

    I   _        IIII                IIIIIII                            IIIIII




            _   __                  __0_                            0__



_       _       0000                0000000                         000000




_                                                               m




            _   0       0   0   0   0       0     0   _     _   _   _       0    _   _       0

                •_      ._ .H ._    "_ "_ -H          0   • _   _   •       _    _   •   _   -_
0




                 IIII                IIII_                          __
            C   __                  ___                             __

                0000                0000000                         000000




            E
                                                                                 Page    1 of 2


                                          APPENDIX    D

             Action    on Recommendations       Contained        in ADP Reviews
                         October     i, 1978 - March        31, 1979



During   the October     I, 1978-March       31, 1979 reporting         period,    OIG issued

seven ADP reviews.        Of these reviews,          four identified        significant        problems

or deficiencies       and are summarized       below:

--   During     the centralization         review    of Minnesota's      proposal       to consolidate

     computer     operations,      it was found       that the Minnesota         State    Information

     Division     had amassed      over    $4.3 million      in retained      earnings

     resulting     from charges       to the computer        center    users.     OIG estimated

     that between       25-30 percent       of that amount        came from Federal        grantees

     and recommended       that such monies          be returned.      The Department           of

     Health,    Education,       and Welfare    is in the process           of effecting

     recovery.




--   An application       survey of the Black          Lung ADP system        found     that

     management       controls   and definitions          were   lacking,    planning     was

     deficient,       and existing    equipment      and software      were     not adequate.

     Among    other things,      it was recommended          that a senior       technical

     manager    be assigned      to the project,          and that the equipment          in place

     be upgraded.        The Employment       Standards      Administration       (ESA) is in

     the process      of implementing       these    recommendations.
                                                                           APPENDIX D (CONT'D)
                                                                           Page 2 of 2



--   An application     survey     of the Federal       Employees'       Compensation        Act

     (FECA) ADP system       found     that   the system      had been    reduced    from planned

     capabilities.      The review        also disclosed       ESA management       had not

     effectively     controlled      and directed      the ADP operations        of the FECA

     program,     and had notadequately            addressed    the total     cost of its

     FECA ADP operations.          OIG recommended       that Departmental          management

     require     an impact   analysis      balancing    capital,     development       and

     future    operational     costs     against    current    operational     costs    before

     approving     any additional        funding    or FECA ADP system        development.




--   The OIG's ADP security          review    of the Colorado       Division    of Employment

     and Training     (CDET)     found    that the Unemployment          Insurance

     system    was vulnerable      to embezzlement       and to data destruction              or

     loss, and that     the wage       and tax subsystems        were unauditable.

     OIG recommended     various       methods     to minimize     the specific      risks

     that were     identified,     and that unauditable          subsystems     be documented.

     CDET   has implemented,       or is in the process          of implementing,

     many   of the specific       recommendations.
                                                                                   Page    1 of l


                                        APPENDIX      E

                           List of ADP Review             Reports
                Issued April i, 1979 through              September   30, 1979



Name of Review     Entity                                              Type of Review

i.   Iowa Department        of Job Service                    ADP Operational     Evaluation       Report

2.    West Virginia   Department     of                       ADP Cost Determination        Report
     HumanResources

3.   Oregon    Department    of Human     Resources           ADP Cost Determination        and
                                                              Centralization  Report

4.   Maine    Department    of Finance     and                ADP Cost Determination        and
     Administration                                           Centralization     Report

5.   Alaska    Department    of Administration                ADP Cost Determination  Report           and
                                                              ADP Centralization  Report

6.   Wisconsin Department of Industry,                        ADP Centralization     Report
     Labor and Human Resources

7.   Optimum    Systems,    Inc.                              ADP Service Contract        Review   -
                                                              Management Letter
